<html>
<title> - [H.A.S.C. No. 114-21] ASSURING ASSURED ACCESS TO SPACE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-21]

                    ASSURING ASSURED ACCESS TO SPACE

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 17, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-223                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                     
  








                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Bruno, Salvatore T. ``Tory,'' President and Chief Executive 
  Officer, United Launch Alliance................................     3
Hyten, Gen John E., USAF, Commander, U.S. Air Force Space Command    28
LaPlante, Dr. William A., Assistant Secretary of the Air Force 
  for Acquisition, Department of Defense.........................    26
McFarland, Hon. Katrina G., Assistant Secretary of Defense for 
  Acquisition, Department of Defense.............................    25
Mitchell, Maj Gen Howard J. ``Mitch,'' USAF (Ret.), Chairman, 
  USAF-Chartered RD-180 Availability Risk Mitigation Study.......    29
Shotwell, Gwynne, President and Chief Operating Officer, Space 
  Exploration Technologies Corporation...........................     5

                                APPENDIX

Prepared Statements:

    Bruno, Salvatore T. ``Tory''.................................    57
    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    56
    Hyten, Gen John E............................................   104
    LaPlante, Dr. William A......................................    94
    McFarland, Hon. Katrina G....................................    88
    Mitchell, Maj Gen Howard J. ``Mitch''........................   114
    Rogers, Hon. Mike............................................    53
    Shotwell, Gwynne.............................................    67

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Sanchez..................................................   125

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................   134
    Mr. Coffman..................................................   133
    Mr. Rogers...................................................   129
    
    
    
    
    
    
                    ASSURING ASSURED ACCESS TO SPACE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 17, 2015.
    The subcommittee met, pursuant to call, at 4:13 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to welcome everybody to 
the Strategic Forces Subcommittee hearing on assured access to 
space. We will be conducting two panels today.
    In the first panel, we have two expert witnesses from 
industry who represent our current and projected near-term 
providers of national security space launch in the Evolved 
Expendable Launch Vehicle [EELV] program.
    In our second panel, we have three senior government 
officials who have responsibilities over EELV program and one 
advisor to the government.
    Testifying on Panel 1 is Mr. Tory Bruno, President and CEO 
[Chief Executive Officer] of United Launch Alliance [ULA], and 
Ms. Gwynne Shotwell, President and Chief Operating Officer of 
Space Exploration Technologies Corporation [SpaceX].
    We appreciate you both taking the time to be here today and 
offer your perspectives, including the challenges and 
opportunities related to our national security space launch 
activities.
    In this job as chairman of the Subcommittee on Strategic 
Forces, I have come to more fully appreciate the importance of 
our space to our country. It is one of the underpinnings of our 
national security.
    Let me provide an example. If a foreign adversary was to 
launch an intercontinental ballistic missile at our country, 
our military would rapidly detect this missile launch through 
our Space-Based Infrared System satellites, and the information 
would be provided to our highest national command authorities 
to appropriately respond.
    Such response would almost certainly be transmitted across 
space-based communications satellites to combatant commanders 
all over the world, who would order our military forces to take 
action, and those troops would rely on space-based intelligence 
surveillance and reconnaissance capabilities and communication 
capabilities to perform their mission and return home safely.
    These are extremely important capabilities that American 
lives may literally depend upon. We can't have space 
capabilities like this without an effective launch program. 
This is literally rocket science. So, one of my top priorities 
in this job is to make sure that we have assured access to 
space both now and in the future.
    We have come a long way since the late 1990s, when we went 
through a span of 10 months and suffered five launch vehicle 
failures. Since 2006, we have benefitted from an unparalleled 
record of success through the Air Force partnership with United 
Launch Alliance with 78 successful launches in the Evolved 
Expendable Launch Vehicle program.
    Most recently this partnership has also brought tremendous 
savings to the taxpayers, $4.4 billion, according to the Air 
Force, as a result of a 36-rocket core block-buy contract.
    Now we are once again entering into a new phase for the 
EELV. We are transitioning to a more competitive environment. 
Many steps have been taken by the government, including 
Congress and the Department of Defense, to encourage this.
    Congress provided funding that was dedicated to new 
entrants for the two launches. SpaceX was awarded both of those 
contracts. And the Air Force has spent nearly $60 million and 
allocated more than 100 government employees to help certify 
SpaceX for the EELV program, which it may do in the near months 
ahead.
    We look forward to competition in the EELV program because 
that will achieve the best outcome for the benefit of our 
taxpayers and our warfighters.
    Lastly, it is extremely important that we work to 
transition off relying on Russian engines for national security 
launch purposes. The intention of the fiscal year 2015 NDAA 
[National Defense Authorization Act] was to provide a 
reasonable transition. Section 1608 language regarding 
prohibition of procuring Russian rocket engines included 
specific exceptions and waivers.
    We intended to allow the use of the Russian engines that we 
understood to be on contract through the period of time that we 
believed would allow for the development of the new U.S. 
engine. My understanding is the Department of Defense may not 
be interpreting it the same way. This remains an issue that we 
look forward to understanding better today.
    Regarding the development of a new engine, I understand 
this will take time. But I believe in our U.S. history, and I 
believe that once the men and women in the Department of 
Defense have the red tape eliminated, we can do this 
expediently, effectively, and efficiently. We should take the 
lowest risk approach that is in accordance with the terms of 
section 1604 of the fiscal year 2015 NDAA.
    Thank you again for being with us today regarding this 
important topic. I look forward to your testimony.
    I now recognize my friend and colleague from Tennessee, Mr. 
Cooper, for an opening statement.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 53.]
    Mr. Cooper. Thank you, Mr. Chairman.
    In view of the lateness of the hour, since this hearing was 
delayed almost 45 minutes due to votes, I ask unanimous consent 
that I insert my opening statement in the record.
    Mr. Rogers. Without objection.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 56.]
    Mr. Rogers. However, I have read his opening statement, and 
I fully concur with it. I could not have said it better. As he 
reminds me often, I couldn't say it better.
    But having said that, now I recognize Panel Number 1, Mr. 
Bruno and Ms. Shotwell. The witnesses are asked to summarize 
their prepared statements for the record. The entire statement 
will be submitted, but you have 5 minutes to summarize.
    Mr. Bruno, we will start with you.

 STATEMENT OF SALVATORE T. ``TORY'' BRUNO, PRESIDENT AND CHIEF 
           EXECUTIVE OFFICER, UNITED LAUNCH ALLIANCE

    Mr. Bruno. Thank you, Chairman Rogers, Ranking Member 
Cooper, members of the subcommittee. Thank you very much for 
inviting me here this evening. I look forward to talking about 
the EELV program, the future of space launch, and how I am 
transforming the United Launch Alliance to meet this new 
environment.
    In changing our company, I have asked our team to focus on 
four basic goals. First and foremost, to substantially reduce 
the cost of launch. Secondly, to move expeditiously and quickly 
towards an American rocket engine replacement so that we may 
retire the venerable and advanced technology, Russian RD-180.
    We are going to do this while maintaining our unique 
capability to launch the entire suite of national security 
space satellites, a capability that no other provider has the 
technical ability to perform.
    And then, finally, we are going to do all this without 
losing our laser focus on mission success, something we feel 
also sets us apart in this marketplace.
    I would like to say a couple of words about our path to an 
American rocket engine. We entered into a strategic partnership 
with Blue Origin late last year, a company founded by Amazon 
founder Jeff Bezos.
    There are a number of reasons why that engine was 
attractive to us from a technology point of view, but I will 
admit that first and foremost in my mind was the urgency I felt 
to move towards an American rocket engine.
    The BE-4 Blue Origin engine is 3 years into its development 
path and offered the most expeditious track to an American 
engine replacement. It is a methane engine and offers novel 
technology and advanced manufacturing techniques that promise 
to substantially reduce cost.
    But as a person who has done rocket development for 30 
years, I can tell you that it is difficult and rocket engines 
are the hardest part. And the history of rocket engine 
development is common with the occurrence of technical 
challenges and those that often affect schedule. So prudence 
required that I have a backup plan.
    So we have also entered into a partnership with Aerojet 
Rocketdyne for their AR-1 engine with a more conventional 
kerosene-based fuel. You could argue that the technical risk of 
that approach is lower because the fuel is more common in the 
industry. However, that engine is 1 to 2 years behind the Blue 
Origin engine.
    And so we will continue both of these until we down select 
in about the 2016, 2017 timeframe, when sufficient testing data 
has been available for us to make an informed decision. I have 
gone to my board of directors and asked for this to be funded 
privately so that we can move out smartly and do both of these 
activities.
    Now, we will place this engine underneath the next 
generation of launch vehicles that will continue to provide 
that complete support to all of the national security space 
satellites, to all of their intended orbits, but we will also 
expand our performance capability so that we are able to meet 
the challenges that might arise in the future as the country 
finds new needs to be coped with in space.
    I will also substantially reduce the cost of our 
infrastructure by streamlining our product line and 
streamlining our facilities and our other launch 
infrastructure.
    So today we maintain a fleet of 16 different rockets. Other 
providers may have a single rocket or two rockets. We fly 16 
variants in order to cover that entire span of national 
security space requirements. But within that fleet of 16, there 
are 2 redundant systems.
    The Delta IV medium class is entirely redundant to the 
Atlas V class in terms of its performance. We have maintained 
these two systems all this time in order to satisfy the 
country's need for assured access, which is to say two 
independent systems so that, in the event that there might be a 
failure or a flaw in one system, there would still be a second 
system able to launch our critical national security assets.
    In this new environment where the policy has changed to 
assure access through the existence of two providers, I will 
now retire the Delta medium class of space launch vehicles when 
we have completed our current requirements within the manifest 
and that team and that infrastructure will be consolidated into 
Atlas, creating considerable savings to our offerings.
    I will also consolidate our pads. Today we have five launch 
pads to support this work. We are going to consolidate to two 
pads, one on each coast. We are going to do that by bringing in 
innovative designs to the pads that will allow them to be 
mission-agnostic, flexible, and handle the volume of lift that 
is currently requiring five.
    And we are going to revolutionize the way people come to us 
to purchase launch services. We are going to introduce a 
standard launch offering, fixed price, priced in advance, that 
customers can buy and then add to that, if they desire, 
standard options also at a pre-priced.
    It will literally be like going to a Web site and building 
your own rocket. It will completely change the way launch 
services are purchased. Together, with all of these changes and 
innovations, we will substantially reduce the price of launch 
from where it is today.
    I would also like to say a couple words about reliability. 
We enjoy an unprecedented perfect mission success record of 94 
consecutive flights, all of which were on time and, by the way, 
all of which were on or under budget.
    This is a record no one has yet to match. And, from our 
perspective, when you are launching national security missions, 
some of which are multi-billion-dollar, one-of-a-kind assets 
upon which lives depend, reliability matters.
    And so, in this environment, I am very excited about the 
changes in our industry. Competition is now possible. I believe 
competition is good for the taxpayer. I believe it is healthy 
for the industry. And I am looking forward to taking that field 
and putting my team there because I am confident that we can 
win.
    [The prepared statement of Mr. Bruno can be found in the 
Appendix on page 57.]
    Mr. Rogers. Thank you very much.
    Ms. Shotwell, thank you very much for being here. You are 
recognized.

  STATEMENT OF GWYNNE SHOTWELL, PRESIDENT AND CHIEF OPERATING 
      OFFICER, SPACE EXPLORATION TECHNOLOGIES CORPORATION

    Ms. Shotwell. Mr. Chairman, Ranking Member Cooper, and 
members of the subcommittee, thank you for the opportunity to 
appear before this committee today. In addition to my opening 
statement, I have prepared a detailed written statement which I 
have submitted for the record.
    Mr. Chairman, every day I go to work with the best and the 
brightest engineers, technicians, and support staff in the 
world, over 4,000 of them now, and I can tell you that they are 
prepared to support our Nation's most critical launches. Those 
who say that U.S. engineers can't compete or that continued 
foreign reliance is the only way forward are wrong.
    The SpaceX mission from day one has been to leverage 
American innovation and technical know-how to provide the most 
reliable space launch systems in history. We seek to serve the 
Nation by offering these systems for national security 
launches.
    To date, the SpaceX Falcon 9 launch vehicle has flown 
successfully 16 consecutive times for a sophisticated array of 
U.S. Government and commercial customers, including the Air 
Force. I am highly confident that the Falcon 9 will be 
certified for the Air Force's EELV-class missions by June of 
this year.
    Later this year we intend to fly the Falcon Heavy, which 
will double the lift capability of any rocket currently flying. 
We believe that this vehicle, which has a great commonality 
with the current Falcon 9, can be certified in relatively short 
order.
    The subcommittee's hearing today on assured access is 
timely. National policy law rightly calls for two completely 
independent launch systems that can lift the full spectrum of 
national security payloads. Due to the common upper stage 
engines flown between Atlas and Delta, Russian reliance, and 
only one heavy-lift rocket, we do not have assured access 
today.
    Even without assured access, the cost of the EELV program 
has become unsustainable. According to the GAO [Government 
Accountability Office], the price per EELV launch has 
quadrupled, from $100 [million] to nearly $400 million.
    But I want to focus my testimony today on what I believe to 
be constructive solutions to achieve assured access.
    First, the United States does not need more Russian engines 
to get national security space payloads to orbit with the 
Falcon 9 and the Delta, both all-American rockets, available. 
The notion of a capability gap is just not true.
    It is noteworthy that the head of Russia's space 
enterprise, Dmitry Rogozin, has publicly stated that funds 
received from the United States for the RD-180 is free money 
that goes to the Russian missile program. How do we justify 
buying more and funding the Russian military?
    Second, continue to pursue a policy of assured access 
through genuine competition between multiple qualified 
providers with redundant, truly dissimilar launch vehicle 
systems.
    Third, eliminate the costly, inefficient, and ineffective 
launch capabilities contract to the incumbent. In the meantime, 
these subsidies must be accounted for if you are to have true 
and real competition.
    Finally, Congress can structure engine development efforts 
to maximize smart investment. Government money is best spent 
against unique government mission requirements that otherwise 
would not be developed by a commercial provider.
    Mr. Chairman, again, thank you. As a nation, we stand on 
the cusp of having real competition for national security space 
launches. SpaceX, with our all-American Falcon 9 and Falcon 
Heavy, looks forward to contributing to the Nation's assured 
access to space.
    I am pleased to address any questions that you have.
    [The prepared statement of Ms. Shotwell can be found in the 
Appendix on page 67.]
    Mr. Rogers. Great. Thank you, both.
    Again, I know it takes a lot of time to prepare for these 
things. So I appreciate you all putting the time in and being 
here. This is a very important subject.
    But let me start with a little housekeeping.
    Ms. Shotwell, I understand that you requested an extension 
to fully respond to the requirement of the disclosure of 
contracts with foreign governments as required under House 
rules.
    Do I have your commitment to provide the required 
disclosure, which is posted publicly per House rules, no later 
than 7 days after the March hearing? To be clear, that would be 
the close of business on the 24th of March.
    Ms. Shotwell. Absolutely.
    Mr. Rogers. Great. Thank you.
    Okay. Next off, quick question for both of you.
    Do you have any concerns, from your perspective, of 
allowing this committee to have access to the terms of the 
recent settlement agreement regarding SpaceX's lawsuit against 
the U.S. Government?
    Ms. Shotwell. I have no concern about the recent----
    Mr. Rogers. About us having access to the terms of that 
agreement.
    Ms. Shotwell. Oh. I am sorry. I am sorry, sir.
    The terms of that agreement are basically governed by the 
Court. And so we have no say whatsoever.
    Mr. Rogers. I understand that the Court is saying that it 
is a secret settlement. I want to know if you all would object 
if the Court let us see that.
    Ms. Shotwell. I don't object. I am sorry. No.
    Mr. Rogers. Mr. Bruno?
    Mr. Bruno. We have no objection at all.
    Mr. Rogers. Thank you, both.
    New topic. Ms. Shotwell, tell us why it is important to 
have competition for the EELV vehicle program.
    Ms. Shotwell. Competition drives prices. Importantly, it 
drives quality of service as well. If you are truly competing 
against a real competitor, you are going to ensure that you 
have a quality product, you have a quality service, at the best 
possible price.
    Mr. Rogers. Mr. Bruno, same question.
    Mr. Bruno. Competition, when it is possible, is universally 
good for the taxpayer. It is healthy for the industry. It 
drives innovation, and it drives value to cost.
    Mr. Rogers. Ms. Shotwell, how do you feel about competing 
against ULA? Do you think that SpaceX can win a free and fair 
competition with ULA?
    Ms. Shotwell. Absolutely I do.
    Mr. Rogers. Mr. Bruno, how do you feel about competing 
against SpaceX? Do you think you can win a free and fair 
competition?
    Mr. Bruno. Absolutely.
    Mr. Rogers. All right. All right. So we both agree.
    Mr. Bruno, what is the impact of section 1608 from the 
fiscal year 2015 NDA [National Defense Authorization] based on 
the most current interpretation of DOD (Department of Defense]?
    Mr. Bruno. Certainly. So the most current interpretation 
limits us to engines that we had on hand prior to the outbreak 
of Crimea. The impact of that is that we will be unable to 
introduce the new American rocket engine before those engines 
are consumed.
    We will have no more than 5 that we are able to use between 
our existing 36-core block buy. That means there will be a 
capability gap between when we are out of engines on Atlas and 
can no longer fly Atlas and when we have the earliest 
opportunity to introduce an American engine.
    Mr. Rogers. What will that mean for your ability to 
compete? Because you all both really want to compete with each 
other. I just heard you say it.
    Mr. Bruno. Yes, we do.
    So the reason we are retiring the Delta IV medium class is 
because it is inherently 25 to 30 percent more expensive than 
the Atlas. It is not competitive in the marketplace. So without 
access to the Atlas rocket, we are essentially unable to 
compete in that timeframe.
    Mr. Rogers. To provide another perspective, Ms. Katrina 
McFarland, who is testifying on the second panel today, offered 
the Department of Defense her view of the statement for the 
record: ``Even assuming a new entrant is certified in the near 
term''--which we expect you to be--``the Department is 
concerned that, with the loss of the Atlas V and the medium- to 
intermediate-class Delta IV vehicle, we could be faced with a 
multi-year gap without at least two price competitive launch 
providers servicing medium- to intermediate-class missions.''
    Ms. Shotwell, the Department is saying we may be faced with 
this multi-year gap in competition. Do you still agree that 
competition is important?
    Ms. Shotwell. Yes, sir, I do. But there is many ways to 
achieve competition. There is also many ways to make vehicles 
cost-effective.
    When we produce more Falcon 9s, the vehicle cost decreases. 
If you were to increase the number of Delta vehicles that you 
produce every year, the price of the Delta would come down. 
Certainly the cost of the Delta would come down.
    Mr. Rogers. But do you think the Delta single can compete 
with SpaceX on price?
    Ms. Shotwell. I believe it would take work on the part of 
ULA, but I believe that is their job.
    Mr. Rogers. That is interesting.
    Do you want to respond to that?
    Mr. Bruno. Certainly. So today we fly Atlas about twice as 
often as we fly Delta. When I said a moment ago that Delta was 
about 25 to 30 percent more expensive than Atlas, that was 
adjusting for flying an all-Delta fleet.
    I would also like to point out that ULA has consistently 
reduced costs from the beginning of the formation of the 
company and the EELV program through today.
    Prior to the formation of ULA, the price of lift had risen 
dramatically due to the collapse of the commercial telecom 
industry. And the average price of lift was then, in fact, $400 
million each.
    As we entered into our block buy, ULA had driven that cost 
down to more like $200 million. And, of course, our goal is to 
eventually drive that price to $100 or below, so cutting it in 
half again.
    Mr. Rogers. Before I stop, I want to go to what Ms. 
McFarland just described as this potential gap of time when we 
won't have access, particularly on the heavy-lift, because I 
understand that SpaceX is close to being certified on these 
medium- and intermediate-range missions, but you still have a 
way before you test on the heavy-lift.
    And Mr. Bruno was saying, without the RD-180, he would not 
be able to continue to compete for the intermediate- and 
medium-range missions, which could then jeopardize his ability 
to maintain the Delta Heavy.
    And I will start with you, Ms. Shotwell.
    Do you agree that there is the potential, as outlined by 
Ms. McFarland, that there could be a multi-year period where we 
would not have assured access to space for the heavy NRO 
[National Reconnaissance Office] platforms?
    Ms. Shotwell. I think it is important to note that the 
Atlas does not have a heavy configuration and that the heaviest 
NRO satellites must fly on the Delta IV Heavy, which is of the 
Delta line.
    Mr. Rogers. Exactly.
    And Mr. Bruno has made the statement that, without the 
Atlas, which is his workhorse mission, that needs the RD-180, 
he would not be able to maintain the infrastructure that 
supports the heavy-lift, Delta IV, which only lifts about once 
every 2 years, and would make it cost-prohibitive; so, it 
wouldn't be in the market. Now this is his argument, not mine.
    Do you agree that that could create the potential that we 
would not have heavy-lift capability for the NRO platforms for 
a 2- to 5-year period, as Ms. McFarland from the DOD has said?
    Ms. Shotwell. So, obviously, I don't understand the 
intricacies of the ULA business. However, I do see the Delta IV 
vehicle flying and flying successfully, the Delta Heavy vehicle 
flying and flying successfully.
    And so, with a Falcon 9 single core, which is comparable to 
a Delta IV, and then the Falcon Heavy, which we will bring on-
line and be certified in time for competition in 2018, then you 
have two completely independent, dissimilar vehicle families, 
both from medium-lift all the way through heavy-lift.
    Mr. Rogers. With that, thank you very much.
    I yield to the ranking member for any questions he may 
have.
    Mr. Cooper. Thank you, Mr. Chairman. I thank you for 
calling this hearing.
    And I want to welcome witnesses from two outstanding 
companies.
    I think the taxpayer has reason to be reassured because we 
have come a long way toward competition, toward higher quality 
and better price for the taxpayer. It was heartening for me to 
hear Mr. Bruno's comments.
    Because I think you are talking about a very different 
company than ULA was even just a few years ago, as you try to 
transform it to a more commercial model with fixed pricing and 
things like that. I think competition led by SpaceX is having a 
very good effect.
    But we all are worried about the lack of assured access to 
space and this window of vulnerability that we may or may not 
be facing, and I think it is important to be aware of that 
risk, but not exaggerate it.
    To my knowledge, there is not a backup for Marine One 
helicopter for the President or for Air Force One. They both 
rely on similar technologies, and it has worked pretty darn 
well. The ULA launch record is outstanding, as is SpaceX's. So, 
as I say, the taxpayer has a lot to be proud of.
    As we transition toward real competition, though, a lot of 
ways of doing business have to change. The ELC [EELV Launch 
Capability] payment that ULA has been getting for a long time, 
almost a billion dollars a year, that would have to go away in 
a truly competitive environment, wouldn't it, Mr. Bruno?
    Mr. Bruno. No. It doesn't go away. The capability contract 
is generally misunderstood. So let me clarify exactly what it 
is.
    They are costs that all providers have. The capability 
contract pays for pads, laboratories, day-of-launch operations, 
and the infrastructure that supports all of that. It is simply 
a contracting choice that the Air Force has made.
    Other providers receive these same costs. NASA [National 
Aeronautics and Space Administration] contracts them in a 
single contract. The Air Force has chosen to break out into two 
contracts. The reason they have done that is because the 
current set of satellites currently on orbit that are now being 
replaced by the launches in the block buy are generally 
exceeding their designed life. And so there is tremendous 
urgency to replace those as quickly as possible.
    The replacement satellites, however, are often experiencing 
schedule challenges and delays. And so it is imperative that, 
even though we don't necessarily know which satellite is going 
to show up to the pad when, that when they do, they can be 
promptly lifted.
    So the Air Force decided to break out those launch 
infrastructure and launch-day costs into a separate contract to 
ensure that we had the flexibility to do just exactly that. And 
in fact, it enables us, together with the block buy of 36, to 
set up an environment where we have essentially planned every 
launch in threes.
    So if we are targeting a given date in a given rocket for a 
spacecraft, we have identified a rocket ahead of time and a 
rocket behind that that spacecraft could move to, should it be 
early or late. We have, in fact, exercised that slot-
manifesting technique six times last year in total transparency 
to the manifest and the Air Force without delay. These are 
costs that everyone has. They are simply contracted differently 
in EELV.
    Mr. Cooper. So are you saying that the other company, 
SpaceX, benefits just as much as ULA does from the billion 
dollars of ELC expenditures every year?
    Mr. Bruno. What I am saying is SpaceX has those same costs. 
They are folded into a single contract when they do business 
with NASA, just like they are with me.
    And, in fact, I should have also mentioned that, when we do 
fly a mission outside the block-buy contract, we, in fact, 
reimburse the Air Force a substantial fee for that 
infrastructure they have supported for each and every launch.
    Mr. Cooper. Do you agree, Ms. Shotwell, with what Mr. Bruno 
is saying?
    Ms. Shotwell. I don't agree completely. No. I don't agree 
with the term substantial reimbursement of costs. In fact, if 
you were to take the billion dollars a year that they get and 
spread that over the average 8 to 10 missions they do per year, 
you know, that is $100 [million] to $125 million per launch.
    It is my understanding that the payback--and I don't have 
his contract, I don't have access to his contract--is 
substantially less than that, possibly on the order of 10 or 15 
percent of that cost.
    Mr. Cooper. A number of other members are here. So I will 
just end with this final observation.
    Washington is fortunate to have a patriotic philanthropist, 
David Rubenstein, who even paid personally to repair the 
Washington Monument. I think the country is lucky to have 
amazing entrepreneurs like Elon Musk and Jeff Bezos who, for 
some reason unknown to me, both want to participate in some of 
the boldest new technologies in space.
    So we are fortunate that they are choosing to spend their 
money in that fashion, not that these companies don't have many 
other backers. But that is a remarkable development for this 
country, and I am proud of their entrepreneurial drive.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the ranking member.
    The chair now recognizes the gentleman from Utah, Mr. 
Bishop, for any questions he may have.
    Mr. Bishop. Thank you, Mr. Chairman.
    Ms. Shotwell, if I could ask you a couple questions. First 
of all, thank you for being here and the expertise that you 
bring.
    The chairman did, as is customary, invite Mr. Musk, who is 
head of the company, to be here. So the questions I actually 
have are for him. But since he decided not to be here and 
manage his schedule to be with us, let me ask you the 
questions, since you are representing him.
    I was reading in Space News an article in January that was 
entitled ``Musk Questions Integrity of the U.S. Air Force 
Certification Process.'' The quote he gave in the article was, 
``The people fighting it''--meaning the Falcon 9 
certification--``are really in the bureaucracy of the Pentagon 
and the procurement officers, who then go and work at Boeing 
and Lockheed Martin, the prime contractors, which has actually 
happened. It is easy to understand from a game theory 
standpoint, especially when you are asking them to award a 
contract to a company where they are probably not going to get 
a job against a company where their friends are. So they have 
got to go against their friends and their future retirement 
program. This is a difficult thing to expect.''
    Now, I don't necessarily presuppose that these are your 
opinions, anyway, as well, but the head of SpaceX, which is 
your company, appears to believe that some of the people who 
are in service in the Air Force and Department of Defense, many 
career employees, may be holding back on certification because 
they have friends somewhere else and they want to work there 
later.
    So I please ask you if you could explain this statement to 
me. Because while Mr. Musk may find it easy to understand, I 
frankly find it very troubling.
    Ms. Shotwell. I appreciate the question.
    Mr. Musk had a concern about a particular procurement 
officer and his choice of job after leaving service. And I am 
sure, if there was any evidence that led to there actually 
being some issues with that particular choice of job, that this 
committee would have investigated and cleared it up.
    However, I do want to state that the relationship with the 
Air Force and SpaceX has been extremely good. We have been 
working shoulder to shoulder on the certification process. It 
was a little slow to get going last year. But, by November, 
December timeframe, we were operating at an incredible pace and 
we just couldn't get it done by December. But I anticipate 
certification of the Falcon 9 launch vehicle upcoming here 
shortly.
    Mr. Bishop. So what you are telling me is that you no 
longer believe that people who may have slowed the 
certification process are doing it simply because they are 
looking out for their own retirement and because they are going 
against friends, that no longer reflects the attitude of the 
company or Mr. Musk?
    Ms. Shotwell. What I am saying is his particular concern 
doesn't seem to have been borne out. He was just raising a 
concern.
    Mr. Bishop. That is a rather damning kind of concern to put 
in public, isn't it?
    Let me also ask another thing. Because I appreciate your 
insistence on competition, but I understand NASA is ready to 
award SpaceX three additional cargo delivery missions to the 
International Space Station.
    I am assuming you support NASA's decision in this regard.
    Ms. Shotwell. Yes, sir.
    Mr. Bishop. But those are sole-source awards without 
competition.
    So do you think it is okay for NASA to award those three 
missions as a sole source without having open competition?
    Ms. Shotwell. Congressman, actually, there was a 
competition, and SpaceX and Orbital Sciences----
    Mr. Bishop. For these new three cargo missions to which I 
am referring.
    Ms. Shotwell. So the competition for the cargo resupply 
[CRS] missions included pricing for out-year missions. And so, 
fundamentally, when we initially competed for that initial CRS 
awards, there were prices for out-year missions. So NASA has 
the ability to look at Orbital's prices, has the ability to 
look at SpaceX's prices----
    Mr. Bishop. And you don't see a distinction between those 
approaches, then?
    Ms. Shotwell. No. We competed and we won.
    Mr. Bishop. You have also said a couple of times here as 
well that Falcon 9 is an all-American launch vehicle and the 
overwhelming material used is aluminum.
    From what company do you get that aluminum?
    Ms. Shotwell. We buy the aluminum from Constellium.
    Mr. Bishop. Is that an American company?
    Ms. Shotwell. No, it is not.
    Mr. Bishop. So you have also said--or at least one of your 
senior engineers has said that most of the avionics is designed 
and manufactured and tested in America.
    Does that mean you have some avionics that are foreign-made 
as well?
    Ms. Shotwell. We have one particular box, a GPS [Global 
Positioning System] receiver. All-American is by percentage. 
And this vehicle is 99 percent American.
    Mr. Bishop. There is a statute in California that would not 
allow that to be advertised as all-American. You know?
    Ms. Shotwell. I am unaware of that.
    Mr. Bishop. Yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes Mr. Takai for 5 minutes for any 
questions he may have.
    Mr. Takai. Thank you, Mr. Chairman.
    Mr. Bruno, United Launch Alliance has a very impressive 
launch success, and I just wanted to thank you and your 
employees and commend you for this success.
    This hearing concerns the matter of assured access to 
space, and the national policy in law requires two separate 
vehicle systems that can execute 100 percent of the national 
security launch requirements.
    What do you suggest we do to fulfill this legal 
requirement?
    Mr. Bruno. So the current policy for assured access to 
space has moved from maintaining two launch systems with a 
single company to achieving two launch systems in a competitive 
environment across two providers or more than two providers.
    That is allowing for competition. I think that is a wise 
and a healthy change in the policy, now that that is possible. 
The best way to achieve its ends is to ensure a fair and even 
playing field in which both companies are able to compete 
effectively.
    Mr. Takai. Thank you.
    Ms. Shotwell, SpaceX has said that it can provide launches 
for DOD payloads at about 75 percent price reduction--I heard a 
little bit different reduction today--from what is currently 
being charged, on the average, per flight.
    How have you been able to achieve this savings?
    Ms. Shotwell. So I am not quite sure where you got that 
percentage.
    Mr. Takai. What is the correct percentage? I have been 
hearing----
    Ms. Shotwell. Compared to----
    Mr. Takai. Compared to the----
    Ms. Shotwell. My price compared to----
    Mr. Takai. Your competitor.
    Ms. Shotwell. Mr. Bruno?
    Mr. Takai. Yes.
    Ms. Shotwell. Okay. So, obviously, I don't have access to 
what Mr. Bruno charges per launch. However, he did receive a 
block buy for 28 missions for $11 billion. So that, to me, 
sounds like about $400 million per mission.
    And I believe the GAO has found price per launch of about 
those numbers. So if the average price for a ULA mission is 
$400 million, the average price for a SpaceX Falcon 9 launch 
commercial is $60 million.
    The government buys launch slightly differently from my 
commercial customers, and they add requirements and additional 
technical. So I would say an average price to the DOD for a 
Falcon 9 launch would be on the order of $80 [million] to $90 
million.
    Now, to be fair, my Falcon Heavy is more expensive than the 
single-core Falcon 9. The average price for a Falcon Heavy to 
the U.S. Government would be on the order of $150 [million] to 
$160 million.
    So an overall average price to the U.S. Government, if I 
were to split Heavies with single-core Falcon 9s, is on the 
order of 120 or so million dollars per flight. So, from that 
math, I see that my prices are 25 percent of what the ULA 
prices are.
    Mr. Takai. Okay. So my question is: How are you able to 
achieve that type of savings?
    Ms. Shotwell. It is hard for me to say. I don't know how to 
build a $400-million rocket. So the more difficult question 
would be--instead how am I less expensive than ULA, I don't 
understand how ULA is as expensive as they are.
    The next most expensive launch vehicle is the Ariane 5, 
produced by Europe. And though they have brilliant technology 
and fine engineers, it is not a particularly efficient economy. 
And the Ariane 5, which enjoys a similar success record--
approximately similar success record, is about half the cost of 
a ULA launch.
    Mr. Takai. Okay. And for my final question, you note in 
your statement that SpaceX designs and builds all of its own 
rockets in California, yet most of the other rocket engines 
that currently support other rockets are built in other 
countries, say, Russia.
    Why did you choose to make your engines in the United 
States? And what are some of the national security advantages 
of an all-American supply chain?
    Ms. Shotwell. So SpaceX did not start out thinking that we 
would build the majority of this rocket ourselves. And we do 
actually build the majority of this rocket. We build our tanks. 
We build our engines. We write our software. We build our 
launch sites. We write our ground-control software. We build 
our fairings.
    So we build this rocket in the United States. Granted, 
there might be some raw materials purchased elsewhere. But this 
is an American rocket built by American hands and technicians.
    And though we didn't necessarily start out that way, there 
were a number of critical technologies that we would not allow 
another company to build for us, and that was propulsion 
technology. We needed to own it because it is a critical part. 
It drives the vehicle design, and it can drive schedule as 
well.
    So though President Putin might be supplying RD-180s right 
now, that is not a guaranteed supply chain to ULA. Even if the 
ban on additional RD-180s were to move forward, how do you know 
that he isn't going to pull the supply chain of those engines?
    As a matter of fact, Dmitry Rogozin did threaten to do 
that. So we found it critically important. Propulsion is 
critically important to the vehicle, and we felt that we, 
SpaceX, had to build that engine ourselves.
    Mr. Rogers. The gentleman's time is expired.
    I thank the gentlelady for her answer.
    Now that Mr. Lamborn is back, he is recognized for 5 
minutes for the next series of questions.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Ms. Shotwell, I am aware that your company is concerned 
that the EELV launch capability contract will provide possibly 
an unfair advantage to your competitor, ULA. But, like ULA, 
your company does have other government contracts. In fact, 
your company receives money from NASA for the Falcon 9, Version 
1.1, I believe.
    Ms. Shotwell. We have a contract with NASA to fly that. 
Yes.
    Mr. Lamborn. Just real quickly as I go along here, what 
would be the amount of that contract?
    Ms. Shotwell. The contract for the Jason-3 mission this 
summer I believe was $63 million.
    Mr. Lamborn. And that is your only contract with NASA?
    Ms. Shotwell. We just received a contract from NASA to 
launch the test payload in 2017 or 2018. And I actually don't 
know the value of that contract. I am guessing--and I will 
follow up with the committee--on the order of $75 million for 
that.
    In addition, I do have a contract with NASA for cargo 
resupply, which is Falcon 9 and the Dragon spacecraft mission, 
to serve the International Space Station with cargo both up and 
down.
    Mr. Lamborn. And how much is that for?
    Ms. Shotwell. It was $1.6 billion initially for 12 flights, 
and we were recently awarded 3 additional missions. On the 
average of about $150 million per mission.
    Mr. Lamborn. So, with that in mind and just to put 
everything in context, how do we define ``fairness''? And I 
would like to hear from each of you on that.
    I mean, obviously, it sounds like you both are doing a 
great job of getting the applicable agencies to trust you to 
provide certain goods and services.
    Ms. Shotwell. I appreciate the question, actually. This is 
a very important topic.
    So ULA, through the EELV launch capabilities contract, 
receives this amount of money every year whether they launch or 
not. Their fixed costs are covered. My fixed costs are only 
covered because of what I charge on a per-mission basis. So if 
I am not launching, my fixed costs are not covered. So they are 
very different, very different, mechanisms to contract.
    With no competition, which ULA has enjoyed since 2006, it 
doesn't matter whether you have a part that is firm-fixed price 
and a part that is not firm-fixed price that costs less. But 
when there is competition, they can sell their launch vehicles 
for the marginal cost of that launch vehicle because their 
fixed costs are already paid for by the Department of Defense.
    Mr. Lamborn. Thank you.
    Mr. Bruno, how would you respond to that question?
    Mr. Bruno. Certainly. But, first, I think I have to 
untangle some of the numbers we just heard to make the context 
of the answer clear.
    So we, in fact, do not charge $400 million for an average 
lift. Our Atlas 401, which is roughly equivalent to a Falcon 
9.1 within the block buy, costs $164 million, on average, for a 
launch service.
    We have an entire fleet of launch vehicles, unlike other 
providers that fly, essentially, one bird. The average lift of 
all of that within our 36-core block buy is $225 million.
    This is a 30 percent reduction as we entered into the block 
buy than from prior years, as we have been working our costs 
down. In fact, the most recent GAO report recognized the $4.4 
billion that the block buy and ELC contract saved the 
government.
    Within the recent cycle of Better Buying Power practices, 
this is fully one-quarter of all of the savings achieved by the 
Department. So there is a consistent trajectory of reduced 
costs. Four hundred [million] dollars is not a number that I 
recognize. These are the actual numbers.
    At the end of the block buy, the price of that 401, which 
is equivalent to a Falcon 9.1, will be more like $140 million 
for the next incremental buy.
    The Delta Heavy is a different class of vehicle than the 
Falcon Heavy will be. One of the things that we have as a 
technical capability that other providers do not have is a 
high-energy upper stage.
    So while performance may be roughly equivalent to LEO [low 
Earth orbit], to the most challenging orbits, the 
geosynchronous orbit, and the high-elliptical orbits there is 
still a performance delta that I urge the government to be 
considerate of as we make sure we have competition for the 
entire spectrum of national security lifts.
    Let me also explain the RD-180. We have an RD-180 
underneath the Atlas because the government asked us to. At the 
end of the Cold War, there was significant concern about Soviet 
rocket scientists ending up in places like North Korea. And so 
we were asked to find cooperative opportunities to keep those 
people employed in a productive way.
    Additionally, the RD-180 represents advanced technology in 
rocket engines that did not exist in the United States then and 
still does not exist today. That technology will come to the 
United States when we develop our new American rocket engines. 
It constitutes a significantly higher performance in the 
advancement of the technology.
    That is why----
    Mr. Rogers. The gentleman's time is expired.
    The chair now recognizes the gentlelady from California, 
Ms. Sanchez, for 5 minutes for any questions she may have.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The more I learn, the more confused I get. I just would 
mention that a few years ago I was over with the French 
counterpart of these two companies. And they were telling me 
that their launch costs about $200 million equivalent, and they 
said they weren't worried about UAL, but could I get rid of 
SpaceX because they were going to drive them out of business. 
So I see why we have kind of a confrontation going on here.
    Mr. Bruno, I understand the reason that you have given for 
the use of the Russian RD-180 engine. I am one of those persons 
that works consistently in NATO and is very worried about what 
is happening with Russia, and I think that it is high time that 
we develop our own engine here or have it or, in the case of 
SpaceX, I guess we have developed it.
    Somebody told me that it was going to be $1 [billion] or $2 
billion additional government moneys invested into building 
this new engine. Is that around the right realm?
    Mr. Bruno. No. That is not correct. Let me help to explain. 
So the typical cost of developing a new liquid rocket engine 
is, in fact, around a billion dollars, with somewhat more money 
to incorporate it into a rocket. The American rocket engine 
that we have embarked upon with Blue Origin and, also, our 
backup with Aerojet Rocketdyne is largely privately funded.
    Ms. Sanchez. So the United States isn't putting very much 
money into developing this? Because I am being told by my staff 
that General Mitchell said it is about $1.5 billion that the 
government is investing into this engine development. I don't 
want to get caught up. But is that true or false?
    Mr. Bruno. That is false.
    Ms. Sanchez. So I will have to go back to General Mitchell, 
then, to see why he said that.
    Let me go to Ms. Shotwell for a minute, and then I might 
come back to you, Mr. Bruno. I am just trying understand this.
    I have been very interested in having competition and new 
entrant certification process for a long time. And I understand 
the major requirement for new entrant certification was that 
you perform three launches successfully. Am I correct about 
that?
    Ms. Shotwell. That is correct.
    Ms. Sanchez. Now, SpaceX, I believe, completed those by 
January 6 of last year, of 2014. Is that correct?
    Ms. Shotwell. That is correct.
    Ms. Sanchez. And, since then, you have completed a total of 
11 more consecutive successful launches with the Falcon 9 
rocket.
    So is your sense that your rocket has demonstrated 
reliability?
    Ms. Shotwell. Absolutely. The Falcon 9 has demonstrated 
incredible reliability. We are 100 percent primary mission 
success with the earlier version of Falcon 9 as well as this 
upgraded version of Falcon 9.
    I want to clarify a little bit. The path that we chose for 
certification required three flights, plus data, plus 
engineering review boards, which are basically design reviews 
of every subsystem, plus audits of our launch site, our quality 
systems, our management systems, and our systems engineering.
    So I just wanted to be clear that it was more than just the 
three flights. It was the three flights plus all the additional 
activity.
    Ms. Sanchez. But it is pretty much the same rocket each 
time?
    Ms. Shotwell. Largely the same rocket. We don't fly a 
fairing when we fly a Dragon capsule to the International Space 
Station, but it is fundamentally the same first stage, with the 
exception of recoverability and reusability pieces. But, 
fundamentally, the same first stage.
    Ms. Sanchez. Then I understand that ULA has about 14 
different configurations of the vehicle.
    So can you tell us, have all of these flown more than three 
times to demonstrate reliability? Mr. Bruno.
    Mr. Bruno. No. They have not all flown more than three 
times. So we have 16 configurations, 10 for the Atlas, 4 for 
the Delta IV, and 1 for the Delta II. The number of flights 
across that family is varied, and I don't off the top of my 
head have the exact scorecard for each one.
    Ms. Sanchez. How much of each went.
    Mr. Bruno. But I will submit that for the record.
    [The information referred to can be found in the Appendix 
on page 125.]
    Ms. Sanchez. That would be great. I would appreciate that. 
Okay.
    For right now, that is the questions that I have. I have a 
lot more after everything you said, but maybe somebody else 
will get to them. Thank you.
    Mr. Rogers. I thank the gentlelady.
    The chair now recognizes the gentleman from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Of course, with all these questions, there is often going 
to be some degree of overlap.
    Mr. Bruno, how many launches has ULA done?
    Mr. Bruno. 94.
    Mr. Brooks. How many has it tried?
    Mr. Bruno. 94.
    Mr. Brooks. 100 percent success record?
    Mr. Bruno. Yes.
    Mr. Brooks. As you have noticed in the media over the last 
couple years with respect to various launch efforts by various 
companies, there have been failures.
    If there were a failure of the kind of launch that ULA 
does, what is the cost? What is the damage, the loss?
    Mr. Bruno. Typically, it would be in the billions. So 
launch is, on average, 10 to 15 percent of the life-cycle cost 
of a national security space mission.
    Mr. Brooks. You said how much?
    Mr. Bruno. Billions of dollars.
    Mr. Brooks. Billions of dollars for one lost launch?
    Mr. Bruno. Yes.
    Mr. Brooks. Ms. Shotwell, last year Mr. Elon Musk testified 
to the Senate Appropriations Committee that, ``No competition 
will be fair, full, and open so long as the Air Force continues 
to utilize contract line items to fuel ULA's fixed costs to 
maintain its launch capability.''
    As you are aware, the Air Force currently has the EELV 
launch capability, ELC, contract in place to meet government 
requirements. As I understand the situation, the Air Force 
plans for competition later this year.
    Do you think these competitions will be fair or unfair and 
why?
    Ms. Shotwell. Well, it depends on how the Air Force decides 
to determine how much of the ELC should be allocated to any 
competed mission. I can't say in advance of reading the request 
for proposal, but I do anticipate a draft in the next month or 
so.
    Mr. Brooks. Mr. Bruno, do you have an opinion?
    Mr. Bruno. I do. I have greater faith in the Air Force 
acquisition corps than my counterpart at SpaceX. I am convinced 
that they will find a way to create a level and even playing 
field and create real competition.
    Mr. Brooks. All right. Next question.
    Ms. Shotwell, the Air Force has told us that whoever wins a 
competition will get a portion of the ELC funding. If SpaceX 
wins, my understanding is that you will get a portion of that 
planned funding.
    Is this correct? And is that fair or unfair?
    Ms. Shotwell. That is not my understanding at all. We have 
never sought nor accepted ELC funding.
    Mr. Brooks. Okay.
    Ms. Shotwell. I hope I understand your question.
    Mr. Brooks. Well, I am reading it as written. So that is 
the best I can do right now.
    Ms. Shotwell. Okay. All right.
    Mr. Brooks. Mr. Bruno, is the ELC contract a subsidy, as 
SpaceX often refers to it? Please describe the role of this 
contract.
    Mr. Bruno. No. It is not a subsidy. As I have said before, 
it covers costs that all launch providers have: pads, labs, 
day-of-launch operations, fuel and propellents, the 
infrastructure that supports them. The Air Force has simply 
chosen to contract for that separately from the production 
element.
    Mr. Brooks. Ms. Shotwell, I am going to give another shot 
at a different question, but please bear in mind that each of 
us Congressmen have staff, both committee and office, that put 
these things together to assist us. Hopefully, this one you 
will be better able to follow.
    Quote, ``Ms. Shotwell, I am aware that SpaceX was surprised 
that its Falcon 9, Version 1.1, was not certified by the Air 
Force at the end of 2014, despite the fact that weekly 
teleconferences were conducted by senior SpaceX leadership, 
such as yourself or Mr. Musk, with Lieutenant General Sam 
Greaves of the Air Force Space and Missile Center.
    ``Were all the elements of the cooperative research and 
development agreement that was signed by the Air Force and 
SpaceX completed by the end of 2014?''
    Ms. Shotwell. Before I answer the question, I do want to 
note that SpaceX and the Air Force are working very closely. 
They are working very hard and we are working very hard, 
shoulder to shoulder, to get this vehicle certified to help fix 
this assured access to space issue. So let's make sure that 
that is very clear.
    The surprise that we had in December was that the mode that 
we were operating in with respect to dealing with open items, 
it looked like we were going to be able to resolve open items 
after certification--some open items after certification. I 
think the Air Force believed in December that they did not want 
to certify with any open items. And so kind of the practice 
that we had been following did not--basically, did not bear 
out.
    However, we have a great understanding with the Air Force 
right now. We continue to work on certification. And I would 
like to be clear. The certification process that we are 
undergoing right now, which SpaceX is going through, we are not 
being paid by the Air Force to go through, and ULA had a very 
different and a much easier certification process when they 
were new with their rockets.
    So we are working very closely with the Air Force on the 
certification. And the certification fundamentally addresses 
all of the issues that one would address right up until a 
flight-readiness review, which occurs just a week or so before 
launch.
    So not only are we, by going through this certification 
process, being certified as a provider or maybe even the launch 
vehicle design, but, fundamentally, we are being certified as 
if we were going to be flying in a week or two.
    And, normally, when you do an Air Force contract, you 
receive a contract and then you fly that mission 2 or 3 years 
later. So all I am trying to say is it is an incredibly 
rigorous certification process.
    Mr. Brooks. I see my time is expired. Let me conclude with 
this one remark.
    Mr. Bruno, United Launch Alliance, thank you for your 
perfect record in servicing our country.
    And, Ms. Shotwell and SpaceX, thank you for your company's 
willingness to engage in a very risky endeavor in space.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes the gentleman Mr. Bridenstine for 
5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Bruno, just a question regarding the Delta retirement 
process. Do you have a timeline for that?
    Mr. Bruno. Yes. I expect to retire it in the 2018 to 2019 
timeframe after we have accomplished the commitments we already 
have.
    Mr. Bridenstine. So when you think about the limitation on 
the RD-180, how does that affect your calculus on when to 
retire the Delta program? Because, ultimately, if there is 
going to be a competition, you will need the Delta program 
beyond 2018, 2019.
    Mr. Bruno. Delta is inherently more expensive than Atlas 
and is simply not competitive in an open marketplace.
    Mr. Bridenstine. And I am just--out of curiosity, when 
there is this limitation out there and the limitation is 
waiverable and there may be uncertainty based on that, how does 
this effect you, as a company, trying to make capital 
expenditures and plan for the future? Does it change the way 
you do business?
    Mr. Bruno. It does. The investment for our new American 
rocket engine and our Next Generation Launch System will 
largely be private.
    Private investment does not like uncertainty. And so this 
issue around 1608 and the availability of the RD-180 is making 
it difficult for us to close with our investors on that 
arrangement.
    Mr. Bridenstine. You mentioned that the Delta IV Heavy has 
a different capability from the Falcon Heavy.
    So how is that relevant if it is going to be retired after 
2018, 2019?
    Mr. Bruno. I will maintain the Delta IV Heavy as long as 
the NRO requires it. I have made that commitment to the NRO and 
to the Air Force.
    When we have the final version of our Next Generation 
Launch System, it will, in fact, have 30 percent more 
capability than a Delta Heavy has today and at a substantially 
lower cost. At that point, I expect the Air Force and the NRO 
will find a graceful path to migrate to that platform.
    Mr. Bridenstine. You mentioned that the BE-4 engine is 
methane and that the AR-1 engine is kerosene. My understanding 
is, when you build a new rocket--or you build a new engine or 
you have a new engine, you need to build an entirely new rocket 
around that engine.
    What are the engineering implications of which direction 
you end up going? Is there a difference in timeframe and those 
kind of things?
    Mr. Bruno. There is a difference in timeframe, but it is 
primarily because the methane engine started 3 years earlier 
than the kerosene engine did.
    Methane is a lower density fuel. And so the tanks on the 
first stage would need to be larger. The kerosene engine we are 
developing will also be longer in length and have different 
interfaces. So, for both, there will be pad changes that need 
to be made as well.
    Mr. Bridenstine. When do you expect the next-generation 
rocket to be ready for testing and, ultimately, usability?
    Mr. Bruno. If all goes as planned, we would have the next-
generation rocket first flying no earlier than 2019, which 
would support a certification in 2022 or 2023.
    Mr. Bridenstine. And for both of you, could you give me an 
estimate, what percentage of your launches are driven by the 
private sector commercial enterprise, the satellite industry, 
for example, you know, commercial telecommunication satellites? 
And not just telecommunication, whether--whatever satellites 
there may be. What percentage is from commercial?
    Ms. Shotwell. Sixty percent of SpaceX launches are 
commercial.
    Mr. Bridenstine. Okay.
    Mr. Bruno. Just under 20 percent for us today.
    Mr. Bridenstine. Is there a reason that it is about 20 
percent and not more, not higher?
    Mr. Bruno. Our primary core market in mission has been for 
national security space.
    Mr. Bridenstine. Okay. And then the final question for both 
of you would be--I have got about 55 seconds left, so you guys 
can divide that among yourselves--as far as infrastructure 
requirements, both of you are going to need infrastructure for 
launch capabilities. Can you share with this panel what those 
requirements might be as we think about the future?
    Ms. Shotwell. As a responsible launch service provider, we 
basically build our own launch pads. We maintain our own launch 
pads. We maintain all our infrastructure, and all of the costs 
of that are rolled into the per-mission price for each launch. 
So it is covered.
    Mr. Bridenstine. Okay.
    Mr. Bruno. Ditto.
    Mr. Bridenstine. Roger that.
    Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    I just want to ask some cleanup questions and then we will 
dismiss this panel. And trust me, I can keep you all here for 2 
hours talking about the stuff on my mind.
    You just mentioned that you would keep the Delta Heavy in 
place, as long as--that the NRO requires or the government 
requires. But you have also said publicly, and I would to go 
back to the RD-180 and the problems it generates, that if we 
don't fix the 1608 language problem in the NDAA 2015 budget, 
that you may not be able to compete for some of the missions 
upcoming and then the Delta program may go away. Is that 
accurate?
    Mr. Bruno. Yes, it is.
    Mr. Rogers. All right. And before I go any further, let me 
ask Ms. Shotwell this: He has already talked about getting rid 
of the Delta IV. If he were to stop the Delta IV, are there any 
missions that it carries out that you could not carry out?
    Ms. Shotwell. No. Falcon 9 and Falcon Heavy could carry out 
all the missions----
    Mr. Rogers. Anything that the Delta IV does.
    Ms. Shotwell. That is correct. As a matter of fact, the 
comment that the Falcon Heavy is less capable than the Delta IV 
heavy is patently untrue.
    Mr. Rogers. Well, my point is, so we would go from him 
having a monopoly to you having a monopoly if he stops with 
Delta IV. Is there anyone else to compete with you for those 
missions?
    Ms. Shotwell. I don't understand why ULA can't focus and 
determine how to make the Delta IV more competitive.
    Mr. Rogers. That is not my question. One thing at a time. 
If he stops the Delta IV rocket launches, is there anybody else 
that can--and you have already said you can do anything it can 
do, is there anybody else that can compete with you for those 
missions?
    Ms. Shotwell. I have not seen Delta IV prices, so if they 
stop Delta IV, I guess we would compete with the Atlas, 
hopefully with an American engine.
    Mr. Rogers. No, I am just saying--forget the Atlas. Let's 
say the Atlas is gone. I am fixing to go there with him. If the 
Delta IV is no longer making launches, and you have already 
said you can do anything it can do, is there anybody else in 
the marketplace that could compete with you for the mission 
work that it would leave?
    Ms. Shotwell. There are international launch service 
providers that could----
    Mr. Rogers. Who?
    Ms. Shotwell. Ariane 5 or Arianespace, and the Proton 
Launch Vehicle through ILS [International Launch Services].
    Mr. Rogers. And you think that they would be competing for 
those launches?
    Ms. Shotwell. Well, I don't think the National Security 
Committee----
    Mr. Rogers. I don't think so either, that is my point. You 
would have a monopoly is where I am going with this, and I just 
want you to acknowledge it. You would have a monopoly on that 
work. But, now I am going to leave you and go back to him.
    If this RD-180 problem is not solved, which I hope we are 
going to solve this year, you have made a statement that you 
may not be able to compete and the Atlas program would go away; 
is that right?
    Mr. Bruno. Yes.
    Mr. Rogers. So, you have already said that the Delta IV is 
going away in 2018. You are saying that we could lose the 
Atlas, but you promised you will never let the Delta IV Heavy 
go away as long as the NRO needs it. Now, if those two things 
happen that I just described, that we lose the Delta IV and the 
Atlas program goes away, how much would it cost for a Delta IV 
to lift, heavy-lift launch?
    Mr. Bruno. Substantially more than it costs now.
    Mr. Rogers. What does it cost now?
    Mr. Bruno. So, Delta IV, depending on the configuration, 
costs between $400 million and $600 million----
    Mr. Rogers. What would it cost if you no longer have the 
other infrastructure?
    Mr. Bruno. Oh, it could be upwards of $1 billion.
    Mr. Rogers. Okay. Is that an acceptable number, do you 
think?
    Mr. Bruno. No.
    Mr. Rogers. Do you think that we would ever pay you that 
much money to launch?
    Mr. Bruno. I do not.
    Mr. Rogers. I think you are correct.
    Now, let me go to you. You do not have the heavy-lift 
capability right now; is that correct?
    Ms. Shotwell. That is correct. We will demonstrate that 
later this year, the plan.
    Mr. Rogers. And let me get you on this now.
    Ms. Shotwell. That is okay. I expected it.
    Mr. Rogers. I love your optimism, but you said in April of 
2014, quote, ``We will launch the Falcon Heavy from here--from 
this pad--early next year.'' We are in early next year; in 
fact, we are at the end of early next year. When do you think 
you will be able to test that Heavy Falcon lift--the Falcon 
Heavy lift?
    Ms. Shotwell. So I will try to be quick. I know----
    Mr. Rogers. No, we are all about you right now. I want to 
hear this.
    Ms. Shotwell. Okay. Thank you. I appreciate that.
    So first of all, we did deemphasize the Falcon Heavy 
development after I made that remark, because we wanted to 
focus on the single-stick or the single-core Falcon 9. It was a 
choice that we could make, largely because the customers that 
we have for the Heavy were really going to start in mid-2016. 
So, we had more time than we originally thought. We did have a 
contracted mission through the Air Force, the STP-2 mission and 
that was originally going to fly in December of 2015. However, 
thankfully, my customer moved that flight out, which gave me 
more time to both focus on the Falcon 9 and its reliability, of 
which we have done a great job of flying that with 100 percent 
mission success, and then I could delay the Falcon Heavy.
    Mr. Rogers. Yeah. Well I just want you to understand--and I 
am not picking on you, because, Blue Origin has got all kind of 
optimistic promises out there, as does Aerojet--is that the 
name of them?--Aerojet Rocketdyne. But here is another thing 
that Elon Musk said in April of 2011, quote, ``First launch 
from our Cape Canaveral launch complex is planned for late 2013 
or 2014.''
    So, you all have made statements before about having this 
heavy-launch capability before now and it hadn't happened yet. 
You said earlier today that you think you are going to have 
this launch later this year and be certified by 2018; is that 
correct?
    Ms. Shotwell. Yes.
    Mr. Rogers. That is very optimistic. Would you agree that 
the certification process historically has been a 2- to 3-year 
process?
    Ms. Shotwell. Actually, we started the certification 
process----
    Mr. Rogers. For the Heavy, the Falcon Heavy?
    Ms. Shotwell. We started the certification process for 
Falcon 9, basically got going, in April of 2014, and we are 
going to finish in about June--by June of 2015. So, I believe--
and by the way, the Air Force has really participated and 
leaned forward heavily on this--with lots of emphasis, I 
believe that the Heavy can be certified in 14 to 16 months.
    Mr. Rogers. You are optimistic. I hope you hang around for 
the next panel, because have you heard of the Mitchell 
Commission? They have a much more dim view of the timeline. And 
I say all this because I am not picking on either one of you, 
but I am very concerned, about this possible window, that we 
don't have heavy-lift capability. I just am. We are at war 
right now, and as you may look around, the world is getting a 
lot more dangerous. We don't know what is about to happen. We 
have to have these NRO platforms up in the air. And we can't 
pay you $1 billion to do it. So, we can't let that happen.
    And, I can't wait for you to be certified on your 
intermediate launches as well as your heavy-lift launches. And 
frankly, I hope you get another company in there competing with 
you all. But, I just want you to understand from our 
perspective, we are going to keep some kind of heavy-lift 
capacity until you are certified, going on. That is in our 
Nation's interest. You may not like the fact that we are going 
to try to figure out a way to keep his Atlas launches going so 
that we can keep the cost down for those heavy launches, but I 
think it is in our Nation's interest. So, please, hurry and get 
that Falcon 9 Heavy working and certified, and I will be a 
happy camper.
    Last thing I want to ask and then I will shut up. But I 
tell you, I may try to arrange a meeting with Mr. Cooper, a sit 
down with the two of you all, in a room and talk about some of 
these things when we have got more time.
    But the last thing I did want to ask, because this concerns 
me, and that is, Ms. Shotwell, does your company oppose Defense 
Contract Audit Agency [DCAA] standards as well as providing the 
necessary detailed costs in processing information to 
government oversight?
    Ms. Shotwell. So, we have DCAA auditors doing manufacturing 
audits for us right now, and we have provided the Air Force and 
other government customers with our costs, and our costs have 
been audited. Our rates have certainly been audited.
    Mr. Rogers. So, as we go forward and you compete for 
government launches, you have got no problem with these DCAA 
audits?
    Ms. Shotwell. No, we have DCAA auditors in the plant right 
now.
    Mr. Rogers. That is what I wanted to hear.
    Mr. Rogers. Chair now recognizes the gentleman from 
Tennessee for much smarter questions.
    Mr. Cooper. Thank you, Mr. Chairman.
    This question is actually Ms. Sanchez's. She asked me to 
ask it on her behalf. It is to Mr. Bruno, and it is, do you 
need any government funding investment for your plan B, which 
is replacing the RD-180 engine for Atlas?
    Mr. Bruno. I do not require government funding; however, 
there are wise investments the government can make, in reducing 
the technology risk of this new and advanced technology we are 
introducing, and I will not say no to help.
    Mr. Cooper. Well, new and advanced technology, but you 
would basically be duplicating what you have been reselling 
from the Russians for 30 years.
    Mr. Bruno. We will, but we will be doing it in a different 
size class with different materials in advanced and more modern 
manufacturing techniques.
    Mr. Cooper. Because they still have a 5-year license hold 
on the technology.
    Mr. Bruno. They have a 5-year license hold on the design of 
the RD-180, not on the fundamental technology I am referring 
to, which is an oxygen-rich, staged-combustion process.
    Mr. Cooper. Okay. Thank you, Mr. Chairman. I look forward 
to the next panel.
    Mr. Rogers. I do too.
    Thank you all very much. This has been enlightening. And I 
do hope you will hang around for this next panel because it is 
going to be an important part of this process as well. So with 
that, this panel is dismissed and I call up the second panel.
    I would now like to welcome our expert witnesses for the 
second panel. Thank you all for coming to testify today and be 
with us. We have the Honorable Katrina McFarland, Assistant 
Secretary of Defense for Acquisition; Dr. William LaPlante--
apparently you must not be honorable. Nobody put that in front 
of your name. I am just joking. You are a very honorable man--
Assistant Secretary of the Air Force for Acquisition; we also 
have General John Hyten, Commander of U.S. Air Force Space 
Command; and Major General ``Mitch'' Mitchell, United States 
Air Force, retired. General Mitchell is representing himself 
today, but he was the chair of the Air Force chartered study to 
risk mitigation for the EELV program concerning U.S. reliance 
on the Russian RD-180 engine.
    And I would also like to recognize a special guest with us 
today. General, it is clear that you have got somebody with us 
that is much better than you.
    General Hyten. That is for sure.
    Mr. Rogers. You married up, brother. But you brought the 
big guns with you. If you get in trouble, I will just ask her 
what the answer is.
    General Hyten. She is much smarter than me too.
    Mr. Rogers. All right. So, Ms. McFarland, I will start with 
you. Your entire statements will be submitted for the record. 
If you could take 3 minutes to kind of summarize it, and we are 
going to do the same thing for all of you, 3 minutes each and 
then we will get into the Q and A and hopefully some more 
discussion type of an environment.
    But anyway, Ms. McFarland, you are recognized for 3 minutes 
to summarize your statement.

STATEMENT OF HON. KATRINA G. MCFARLAND, ASSISTANT SECRETARY OF 
         DEFENSE FOR ACQUISITION, DEPARTMENT OF DEFENSE

    Secretary McFarland. Thank you, Chairman Rogers, Ranking 
Member Cooper, and distinguished members of the committee. I 
appreciate the opportunity to appear today before this 
subcommittee.
    The Department's highest priority for space launch is 
assured access to space. That requires two highly reliable 
engine launch systems as a fail-safe method to allow for 
continued access should one suffer a fleet grounding event. If 
we do not have an alternative launch system, all our overhead 
space operations that provide capabilities such as global 
awareness, communications, strategic missile warnings and 
indications, and position, navigation, and timing information 
are at risk.
    We are dependent upon assured access to space as the 
enabler of space operations that we rely on for national 
security. We can recognize, however, that the assured access to 
space must come at an affordable price, and that is why we 
intend to pursue affordability and a healthy industrial base by 
incentivizing innovation through an orderly transition to 
competition via certified new entrants. I state orderly 
transition, as moving to competition must not occur at the 
reduction or expense of mission assurance. We lost sight of 
mission assurance in the 1990s and that led to a string of 
launch failures, where more than $5 billion worth of hardware 
and three national security payloads were lost. We can't afford 
to repeat that.
    When speaking of new entrants, it is important to 
understand that certification is a cornerstone of our mission 
assurance process. We have invested heavily through the Air 
Force in providing a means for certification to new entrants, 
and it appears to be paying off as our first new entrant, in 
this case SpaceX, according to the Air Force as the 
certificating authority should be certified this year.
    My last emphasis will be on our commitment to end use by 
our providers on the Russian RD-180 engines as we pursue our 
competition of competitive launch services. The Air Force has 
been working with industry and subject matter experts since 
last year early to find an alternative solution. We are 
concerned about the current fiscal year 2015 NDAA section 1608 
language. It may interfere with our ability to transition in an 
orderly and efficient manner to two domestically produced 
affordable and effective certified launch systems in a 
competition that can sustain our full launch manifest 
requirements. As it is written, it may result in a trade of one 
monopoly to another.
    We are committed to reintroducing competition into the EELV 
program and ending the use of the RD-180 as quickly and as 
safely as possible. Space launch is an inherently unforgiving, 
high-risk endeavor, which our approach to mission assurance has 
effectively mitigated for over 15 years. As we move forward 
into a more competitive environment, we will continue to 
maintain our robust mission-assurance standards because the 
cost of failure is simply too high.
    Thank you, again, for this opportunity to appear before the 
subcommittee, and I turn it over now to my colleague.
    Dr. LaPlante. Thank you, Ms. McFarland.
    [The prepared statement of Secretary McFarland can be found 
in the Appendix on page 88.]
    Mr. Rogers. Mr. LaPlante is recognized.

 STATEMENT OF DR. WILLIAM A. LAPLANTE, ASSISTANT SECRETARY OF 
      THE AIR FORCE FOR ACQUISITION, DEPARTMENT OF DEFENSE

    Dr. LaPlante. Yeah. Thank you, Chairman Rogers. Thank you 
Ranking Member Cooper and other members of this panel. I can 
just say right up front that this panel just today has already 
done a really important work in exposing and clarifying, I 
think, the challenges we have, particularly in the wrap-up 
there, Mr. Chairman. You got right to it. So, thank you for 
holding this hearing.
    As we know, we have a lot of challenges here. You know, one 
word that has not yet come up but I want to emphasize is 
``sequester.'' So, we think about everything that is ahead of 
us, whether we do public/private partnership, we also could 
have the ``S'' word to deal with.
    So, let me go ahead and just give a summary of where I 
think things stand and then, in the interest of time, turn it 
over then to my colleague, General Hyten.
    Obviously, this is a hard problem. I think you just heard 
this in the last meeting. I am an engineer. I like to talk 
about constraints and over-constrained problems. In many ways, 
this is an over-constrained problem, meaning we and the 
situation are given more constraints than are possible to 
achieve the outcome. So let's talk about this. Typically, when 
you have a problem like this, it is usually worthwhile, I 
found, to first start about the desired end state. It is 
actually pretty simple and easy to get everybody to agree to. 
The desired end state. Then what you do is you say where are we 
today? I think what you just heard was a pretty good summary of 
where we are today. I am going to give my version of that. But 
those are two kind of easy pieces. The next piece is the key: 
What is the way to get from here to there, the transition plan? 
That is what we are here, and that is what we are all about. 
And can we pull it off?
    So, let's talk about the desired end state. We heard it. We 
have at least two independent launch vehicle families that can 
do the assured access to space for General Hyten's manifest. We 
heard that we need to do this with American propulsion, 
American technology. And we heard we need to do this 
competitively. We want competition. We want to bring the price 
down. That is our desired end state.
    Where are we today? Well, we just heard. Let's talk about 
ULA. ULA has got the Atlas V and the situation with the RD-180. 
We heard the risk that is there. We heard the discussion and 
the language. We heard Tory Bruno say a number of his lowest 
five, okay. Then let's go to the next one, the Delta. We heard 
Tory Bruno say what we all know, which is at least 30 percent 
more expensive than the Atlas V, and we heard what he proposes 
to do about that, namely to shut down the line in 2018 so he 
can make his Atlas V more competitive, okay.
    And then we heard SpaceX, which any day now, any month now 
or week now--we are shooting for June--who is going to be 
certified to do a lot of our manifest. And make no mistake, the 
national security of the United States will be improved the day 
SpaceX is certified. It is really, really important.
    But so now, let's talk about a transition plan to get 
between where we are today to this desired end state. Well, I 
think what we just heard is that just talking about an engine 
in isolation and the government funding the engine and getting 
at what Congresswoman Sanchez was asking, about the amount of 
money, no, that is the amount of money that has to be spent. 
Let's say $1 billion, maybe plus. The question is by whom? How 
much of it is government? How much of it is private?
    We heard just in the last session, very promising from both 
witnesses, and pride, about what private investment can do. I 
think if we want to spur innovation, we have a duty to the 
taxpayer to look at what it would be done to compete launches 
of service and see what teams come forward, including how much 
they would do on their own and how much the government would 
pay. That is what is called a public/private partnership. We 
are moving out on that immediately right now. We were going the 
put a draft RFP [request for proposal] on the street next 
week--next month excuse me--to find out who is serious, what 
does this look like. At the same time, we are putting money, as 
per the legislation, against risk reduction this year to 
continue it on this type of engine technology, and we are going 
to move out.
    So, that is the situation we are in and that is our 
approach to it. But, make no mistake, Mr. Chairman, you got to 
it near the end: We do have to ask ourselves what risk we have 
still doing that strategy and having all of those conditions. 
So, at that point I am going to just finish my opening remarks. 
Again, thank you for the hearing.
    [The prepared statement of Secretary LaPlante can be found 
in the Appendix on page 94.]
    Mr. Rogers. Great. Thank you. General Hyten, you are 
recognized for 3 minutes.

STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, U.S. AIR FORCE 
                         SPACE COMMAND

    General Hyten. Thank you, Mr. Chairman. Thank you Ranking 
Member Cooper, members of the committee. This really is an 
important subject. And I very much appreciate as a commander of 
Air Force Space Command that you allow us to come here today 
and talk about this problem. Because, it is a risk decision 
that we have to figure out as we go through. So, on behalf of 
the 38,000 men and women of Air Force Space Command deployed in 
134 locations around the globe right now, I really thank you 
for this opportunity.
    So, as the commander of Space Command, I have three 
priorities for our space-lift mission. The first priority and 
most important is to maintain assured access to space from at 
least two U.S.-based transportation vehicle families who can 
reliably launch national security payloads.
    So, in my 34 years in the Air Force, I have twice 
experienced periods where our military lost assured access to 
space. The first was in January 1986 with the loss of the space 
shuttle Challenger. Because the shuttle was used for military 
satellite launches, we not only lost the lives of seven great 
Americans, but we lost our Nation's access to space at the same 
time. That impact was significant. It caused gaps, but it was 
limited because space was just becoming part of our military 
infrastructure at the time.
    The second time it happened was in the late 1990s, when we 
had a string of launch failures caused by our lack of focus on 
mission assurance and basic engineering principles, that 
culminated in the failure of three huge Titan IVs: One with a 
DSP [Defense Support Program] missile warning satellite, one 
with a Milstar-protected satellite communications system, and 
one with a National Reconnaissance [Office] satellite.
    Each of these failures cost this Nation over $1 billion, 
but more importantly, it denied our Nation critical warfighting 
capabilities that would be important as we approached 9/11. 
Today space is fundamental to every military operation on this 
planet, from humanitarian to full-combat operations and the 
loss of assured access to space would be extremely damaging to 
national security. That is why it is my highest priority and it 
is the prime directive for my command.
    The next priority is to insert competition into the launch 
business. There is no doubt that new entrants have the 
potential to improve assured access to space as well as drive 
down costs. That is important, but it has to be conducted in 
context with assured access to space.
    The next priority is move as fast as we can to get away 
from rocket engines not built by the United States. 
Specifically, getting off the Russian RD-180 from the Atlas V. 
I fundamentally believe that every American rocket should be 
powered by an American engine. It is really that simple. So, 
keeping in mind the prime directive of assured access, the 
production of a new engine must be in partnership with industry 
to assure we have a rocket, or ideally rockets, which will be 
able to fly with any engine that we build. Right now, this is a 
concern of mine.
    But my biggest concern in this new competitive environment 
with the future, and I thought the previous panel did a great 
job talking about that, is what happens when, God forbid, we 
have a launch failure and we must shut down a rocket for a year 
or two. With multiple companies operating under tight margins, 
how does the company that experienced that launch failure stay 
in business without the revenue stream that you heard talked 
about so much from a vigorous launch campaign?
    Who makes the decision when we return to fly? Who makes the 
decision to put another $1 billion satellite on top of that? 
Who makes the decision that we have to have assured access to 
space and there we are going to do those things? The story of 
ELC is actually part of that story, and I will be glad to 
address that in questions, but all of these are difficult 
questions.
    So, Mr. Chairman, I thank you for your support.
    Ranking Member Cooper, I thank you for your support, and I 
look forward to your questions as we go forward.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 104.]
    Mr. Rogers. Thank the gentleman. General, you are 
recognized.

STATEMENT OF MAJ GEN HOWARD J. ``MITCH'' MITCHELL, USAF (RET.), 
 CHAIRMAN, USAF-CHARTERED RD-180 AVAILABILITY RISK MITIGATION 
                             STUDY

    General Mitchell. Chairman Rogers, Ranking Member Cooper, 
and members of the committee, thank you very much and good 
evening. Thank you for the opportunity to discuss assured 
access to space, a critical component of our national security.
    I chaired the RD-180 mitigation study last March and April. 
I testified on Congress, provided copies of the report. I would 
only say that the major recommendation from that was that the 
Nation should have the capability to have liquid hydrogen, 
solid rocket motors, and hydrocarbon propulsion systems 
available to rocket designers to optimize the designs, and that 
is still valid today.
    The EELV program has been very successful. It was designed 
to meet the DOD national security space requirements and has 
done so remarkably well. The family of launch systems has met 
all the requirements documented in the key performance 
parameters of the 1998 operational requirements document.
    That being said, as has been discussed today, the program 
is the midst of a major restructure, if not properly resourced 
and carefully thought out, will add significant risk to assured 
access to space for national security, particularly, launches 
in the 2018 to 2022 timeframe. That may not result in a 
competitive environment, as has been discussed earlier. 
Depending on the interpretation of the RD-180 restrictive 
language, it could actually affect the 2015 to 2017 Phase A1 
procurements that the Air Force plans, because we will be in a 
sole-source position as early as 2016.
    If success orientated schedules for the contractors and the 
government are not met, the 2018 EELV program will look like 
the following: No Delta IVs, except the Delta IV Heavy at an 
extraordinary cost; no Atlas Vs; no certified Falcon 9 Heavy, 
that is yet to be submitted for that certification process to 
begin; no Next Generation Launch System [NGLS] yet, as Mr. 
Bruno said, it won't be on until 2022 or 2023.
    Only Falcon 9, version 1.1, which launches the lower end of 
the mission model, and the Delta IV Heavy would be available 
for national security missions. The result would be that 
national security flying on the Atlas V, that are currently in 
that middle range, would have to fly on a Delta IV Heavy or 
they would have to wait for either NGLS or SpaceX Falcon 9 
Heavy to show up. That would be an untenable situation.
    This potential 2018 program would result in two monopolies, 
one for the heavy mission, ULA, one for everything else, 
SpaceX. Obviously, this is not the desired end state for 
competition, but is certainly a plausible outcome based on the 
risk profiles. The only way to preserve competition and avoid 
this situation is to allow the use of RD-180 engines until a 
transition plan to new launch system is defined and adequately 
resourced.
    I recommend a plan be put in place led by the Air Force to 
do that. And I will close with a comment from a colleague of 
mine who said, ``Currently, no stakeholder has a credible plan 
that closes. Each stakeholder has a different endgame solution, 
and each stakeholder's current non-closing game plan has `and 
then a miracle happens' as the last element of the plan. And 
all of those miracles are different.''
    I appreciate the opportunity to discuss this and look 
forward to your questions.
    [The prepared statement of General Mitchell can be found in 
the Appendix on page 114.]
    Mr. Rogers. Great. Thank you. All of you made reference to 
the importance that we clean up this 1608 language problem, and 
you just heard General Mitchell made a real sense of urgency 
about it.
    So, I want to start with this: You heard earlier--we heard 
Mr. Bruno, in the earlier panel--I guess all of you listened to 
the first panel--make references to what will happen if he 
doesn't get a replacement engine for the RD-180 soon, get that 
language cleaned up. Well, if he doesn't get a replacement 
engine or isn't able to use the engines that we have paid for, 
that could create a potential that we would only have the Delta 
IV Heavy for the NRO launches that are essential to our 
national security. Does everybody agree with that?
    Record will show everybody said yes.
    All right. You heard the eternal optimism of Ms. Shotwell, 
that she is going to have her Falcon 9 Heavy able to launch 
later this year and certified by 2018. And let me start with 
General Mitchell. Do you think that is a realistic timeline?
    General Mitchell. Sir, I think when you talk the Falcon 9 
Heavy, it is realistic for them to start the process. The 
question on finishing the process has got a couple aspects to 
it: One is, do they get enough launches in? And that is 
determined by them. As they do their statement of intent, they 
will say whether they are going to do three launches or six 
launches. There is several options. The process to go through 
to get certified will then take some time.
    Mr. Rogers. But before you go to the certification, let's 
stay on the launches. They are going to have to prove this 
technology----
    General Mitchell. Yes, sir.
    Mr. Rogers [continuing]. Which is going to take some 
launches. You know this business. What is a realistic timeline 
that you think that that could be done by that company?
    General Mitchell. Well, from what I understand, their 
manifest, they are in the process of building the Falcon 9 
Heavy now, the first one. It would be at least a year, year and 
a half before they could launch all three of those, perhaps 2 
years. And that is only one part of those certifications.
    Mr. Rogers. And that is if it works?
    General Mitchell. Yes, sir. That is success orientated.
    Mr. Rogers. There is 27 rockets that is going to be put in 
there and there is all kind of issues about whether it would 
work. But let's assume it works. You are saying a year to 2 
years before they can test----
    General Mitchell. Before the----
    Mr. Rogers. No, no, not certification.
    General Mitchell. Just the launches.
    Mr. Rogers. Just to prove the launches work and all the 
rockets go in the same direction.
    General Mitchell. Yes, sir.
    Mr. Rogers. Which is the desired goal. So now, 18 months 
from now, they have successfully proven the technology works. 
How long will the certification process take? Because as I 
understand it from you, it starts at that point.
    General Mitchell. Yes, sir.
    Mr. Rogers. You heard Ms. Shotwell say they have already 
started the certification process. I don't think you can start 
the certification process until you prove the technology works.
    General Mitchell. Right. So let's be clear, sir. There are 
some steps in this process. First, there is a statement of 
intent that says I want to get this rocket certified.
    Mr. Rogers. Okay. That is what she started.
    General Mitchell. Right. When they put that statement in, 
then they say how many launches they are going to do, as part 
of that certification process, and depending on how many 
launches they do, depends on what depth of technical expertise 
you apply to look at their design. Then, they do an agreement 
as to how that certification is going to be done. It takes some 
time after the statement of intent to negotiate what the rules 
of engagement are going to be.
    Then it takes typically, I would say, because it is a redo 
of the company, you don't have to go back and look at their 
quality and a lot of their manufacturing processes, but you do 
have to look at the product. So, it probably won't take 2 
years, but I would be surprised if it took less than 18 months, 
because a Falcon 9 Heavy is going to have to meet some very 
stringent requirements, the hardest one being a direct inject 
to geosynchronous orbit for a 14,500-pound payload that 
requires a 3-hour coast mission for an upper stage, and that 
upper stage today does not exist.
    So, it is not just getting a heavy. It is getting a heavy 
that can perform the DOD missions. The first heavies are going 
to be at experiment. The STP-2 mission, they have got a couple 
of commercial launches, but none of those launches are going to 
be as stressful as the heaviest of the DOD requirements.
    Mr. Rogers. Okay. So----
    General Mitchell. I don't think you are going to get a 
system certified until 2018 or beyond.
    Mr. Rogers. Okay. She, Ms. Shotwell believes that she will 
have that entire process complete by 2018. Are you saying that 
is doable?
    General Mitchell. They could get there by 2018 if 
everything is successful.
    Mr. Rogers. If everything is successful.
    General Mitchell. No earlier than 2018.
    Mr. Rogers. Is that optimistic or is it practically 
realistic?
    General Mitchell. I would say it is optimistic, sir.
    Mr. Rogers. What do you think is a realistic timeline, 
based on your experience with this process, which is extensive?
    General Mitchell. If they have no failures of the Falcon 
Heavy, then they can get there probably in 2 years, 24 months 
after, so it would be the middle of 2019.
    Mr. Rogers. Okay.
    General Mitchell. If they have a failure, all bets are off. 
It depends on what it is and what it means for the redesign and 
everything else.
    Mr. Rogers. Okay. General Hyten, you heard me talk about 
this new technology and, again, as I said in the previous 
panel, I want to see this heavy, this Falcon 9 Heavy certified. 
But this is new, this whole approach of using 27 rockets. Tell 
me about what your thoughts are on that. How high a confidence 
level do you have that this new technology is going to work in 
the test that Ms. Shotwell talked about would be later this 
year?
    General Hyten. I will never deny the ingenuity of SpaceX to 
pull something off. Because what they have done in the last 4 
years is really remarkable, how far they have come.
    Mr. Rogers. Right.
    General Hyten. So they have the ability to do that. But 
they are going to strap three Falcon 9s together, each with 9 
engines on the bottom, so you will have 27 engines on the 
bottom to take that heavy capability up. And then they are 
going to have an upper stage because they are going to have to 
demonstrate how to get with an upper stage coasting to GEO 
[geosynchronous Earth orbit] for a long period of time. That is 
a very stressful mission. They are going to have to come in to 
us with a certification proposal.
    Mr. Rogers. Have they submitted an intent?
    General Hyten. They have not submitted----
    Mr. Rogers. So, no process has even been started yet?
    General Hyten. Not on the Falcon 9 Heavy, no, sir. And so 
when they come in, they will tell us, one, three, nine, it 
won't be nine for a heavy because you will never get to there 
with nine. But probably one or three and then they are going to 
have to basically say we will submit the following data, the 
following design reviews, the following certification process. 
And if it is one, it is a longer process, if it is only one 
launch they have done, it is a longer process than it is with 
three, because we will see more of the multiple launches that 
go on.
    So, I agree with General Mitchell in terms of it is very 
aggressive to get to 2018, but SpaceX has been amazing in their 
ability to deliver those capabilities. So, I will not say that 
it is impossible, but I think 2019 or 2020 is a more likely 
solution for a heavy capability.
    Mr. Rogers. Okay. Dr. LaPlante, same question: How 
realistic is it do you think, we will have an alternative to 
the Delta IV Heavy, from SpaceX, demonstrated and certified? 
What is the most realistic timeline, in your mind?
    Dr. LaPlante. Well I think, again, what my previous two 
colleagues said is exactly what I have been hearing for the 
last 2 years, is more or less what these two gentlemen have 
said. And they have also said, you know, just that the 
challenge is success oriented, and so the likelihood of having 
all that done, all the certification done in the 2018 
timeframe, normally I would say that is probably lower 
likelihood than you would expect.
    But, the caveat I have to make is what General Hyten just 
made. I mean, SpaceX has done remarkable things. They have done 
remarkable things. And so, we are all in the jobs of trying--
our job is not to be optimistic or pessimistic; it is to be 
accurate. And so I think it is an optimistic schedule. They may 
be able to pull it off, but you heard all the challenges.
    I also want to add one other thing, Mr. Chairman. If you 
heard General Hyten and General Mitchell talking about, depends 
which approach they do in certification, for those just to 
know, we have essentially a user's guide. If you want to be a 
new certifier, you can go in and you can look, depending on 
what class of missions, which path you want to go. General 
Hyten just said, you could do it only with one launch but then 
you have to do a lot of other stuff to show us.
    On the other hand, at the other extreme, you could do a lot 
of launches and show us very little because the proof is in the 
pudding, or go something in between. So they, SpaceX has to 
decide which approach they want to do and then put in place 
their statement of intent. That has not yet, at least on our 
side, happened.
    Mr. Rogers. Yeah. So, I am surprised, I thought that based 
on Ms. Shotwell's testimony, the certification process has 
already been initiated. But you say that is not accurate?
    Dr. LaPlante. Not formally on our side. In the case of the 
Falcon 9, the formal process, depending on whether it is 
statement of intent, we actually signed the CRADA [Cooperative 
Research and Development Agreement], which was the detailed 
agreement between the Air Force and SpaceX for certification in 
June of 2013. That is the detailed plan of how we, together, 
would do this. And so, that hasn't happened yet for Falcon, for 
the current vehicle. That is a key point.
    Mr. Rogers. Let many ask this question: If, in fact, it 
takes SpaceX, and I understand it is heavy lift, because that 
is where I am really concerned for our national security 
interest, if it takes them another 2 to 3 years to successfully 
test this technology, to the satisfaction of you that it works, 
and then the certification process takes 18 months, we could be 
looking at 2020 or 2021 or maybe even 2022 before the final 
certification process could be done. If everything doesn't go 
perfectly. Is that an accurate statement?
    General Mitchell. Sir, I would only add to that that once 
it is certified, then you have to be awarded a mission, and it 
is about 2 years after certification before you would actually 
launch a mission. Because you have to integrate that payload 
into it. So, you have got to take the end of certification, 
then you have to win a competition to actually fly a mission, 
and then you have to take about 2 years to integrate and make 
sure that it is going to be a mission success not just----
    Mr. Rogers. This is the last thing I will pester you all 
with, so everybody else gets a chance to ask questions. Is 
there, in your opinion--and this is for each one of you I am 
asking another question--a realistic probability that we could 
have a window of 1 to 3 or more years, where we will not have 
heavy-launch capacity or access to space in the absence of 
paying $1 billion or more for a launch, under the landscape, as 
you see it, laying ahead of us? Ms. McFarland.
    Secretary McFarland. Chairman, since I haven't had a chance 
here, I will definitely jump on that. Yes, that is our gravest 
concern.
    Mr. Rogers. Is that an acceptable national security risk, 
in your opinion?
    Secretary McFarland. No, sir, it is not.
    Mr. Rogers. Dr. LaPlante, same question.
    Dr. LaPlante. No, not if we are going to have assured 
access to space with two independent lines. By definition, by 
policy of the country, that violates that.
    Mr. Rogers. But based on the testimony you have heard from 
the first panel and the witnesses here in this panel, the 
circumstance we are facing is not an acceptable national 
security risk, in your opinion?
    Dr. LaPlante. My opinion, it adds significant risk to 
national security, and the policy--this is important--the 
policy of having two independent vehicles, if you will, and 
independent, as Tory Bruno and Gwynne Shotwell talked about it, 
access to space. It does not meet that.
    Mr. Rogers. General Hyten, same question.
    General Hyten. It is not acceptable risk, period.
    Mr. Rogers. Okay. General Mitchell.
    General Mitchell. I would only add that the Falcon 9 Heavy 
probably has a better chance of getting there before the NGLS 
or the Next Generation Launch System, which probably isn't 
going to, as Mr. Bruno said, be launching until 2022 or 2023. I 
think you will see a Falcon 9 Heavy launch before then but 
probably not before 2020.
    Mr. Rogers. Ms. McFarland, do you believe that if we fix 
this 1608 language problem, it would remedy the circumstance 
that you all just testified was unacceptable?
    Secretary McFarland. Chairman, I would be thrilled if you 
came and worked with us on anything that you would like to 
propose relative to helping us in this matter.
    Mr. Rogers. If the 1608 language was fixed so that we could 
use those additional 14 RD-180 engines, would it remedy the 
situation that you just all said was unacceptable?
    Secretary McFarland. Yes, sir.
    Mr. Rogers. That is all I want. Thank you very much.
    The chair now recognizes the ranking member.
    Mr. Cooper. Thank you, Mr. Chairman.
    And I appreciate the terrific expertise of all the 
witnesses.
    I am a little worried that in some of the chairman's 
questions we were like starting to borrow some trouble, and we 
have enough trouble already because we want to be honest about 
this. The greatest threat we face that threatens assured access 
to space is probably our own sequestration stupidity. Because 
that is a Pentagon-wide problem, and it is up to Congress to 
fix that. And I am grateful, it is my understanding, that some 
67 of our Republican colleagues have now signed a letter saying 
they will not vote for a budget that is below the President's 
request for defense spending.
    Because we have got to at least be at the President's 
level, because as General Dempsey said, that is the lower 
ragged edge of what we absolutely have to have. So, that is 
step one and that is the committee's responsibility. Step two, 
the chairman just got at, let's correct the mistake that we 
probably made in the 1608 language so that all 14 of the RD-
180s can be used, because that would help close this possible 
window of vulnerability.
    Okay. Then we get to more of the stuff we have been talking 
about in this hearing, which is we took the great words, 
``assured access to space,'' and we have effectively added some 
other things, for good reasons. Assured affordable, access to 
space. And competition is a way of achieving that but it is not 
the only way. I will get to that later. And then it has got to 
be assured, affordable American access to space because, you 
know, we are not against the Europeans but they have a rocket 
too, the Ariane 5, that can work for some stuff.
    So, but if we delve deeper into these things, we really 
haven't brought up with RL-10 issue, the single point of 
vulnerability that we have today, in which that is really 
almost prehistoric technology compared even to the RD-180. So, 
there are a lot of issues here. But it seems to me that when 
the taxpayer is listening to this, they are thinking, well, 
competition is good, but that also could be viewed as 
redundancy. We are paying for extra capacity that we know we 
are not going to use, and in certain areas of life you want 
redundancy, you want belt and suspenders. That is good. You 
want a seat belt and airbags.
    But, you know, when I see entrepreneurs, and it is 
interesting now that both SpaceX and ULA are relying heavily on 
these remarkable individuals, who essentially compete against 
themselves. You know, their motto is probably, you know, ``The 
difficult we do immediately; the impossible takes a little 
longer.'' Because already in many ways they have achieved what 
most mortals would have considered impossible.
    So, this window of vulnerability that we may or may not be 
facing--and General Mitchell did an excellent job with his RD-
180 mitigation report--there are ways of closing that gap. One 
of the ways that might be distasteful is to acknowledge that we 
have had 30 years to replace the RD-180 and we haven't done it 
yet, and buying a few more, which even in times of trouble with 
the Russians, they have been willing to sell us, is a way of 
closing that gap. And a darn affordable one, because the 
business plan of ULA previously has basically been reselling 
Russian technology. And that is an American company? Whoa. 
Definitions get a little squishy here.
    So, there are ways to solve this problem. So I hope the sum 
message of this hearing is not that we can't do it in America, 
because we can do it in America. We will do it in America. We 
will get this done. And oftentimes, we argue over technique, 
and it is good to have this competition and occasional elbow. 
But, we are a can-do country and we will get this lift done.
    And one thing that hasn't been mentioned is, it is my 
understanding that many of our satellites are being downsized. 
So, perhaps the heavy-lift capability isn't as necessary as it 
once was. So, we have got to get with the program here. And I 
think that the sum total of your testimony is, maybe we need to 
get the bureaucracy a little faster, because an automatic 2-
year process, as I told one of the witnesses earlier, that was 
half of World War II and now we just use that much time.
    And, you know, if we had to, in emergency, spend $1 
billion, well, what did we spend in Afghanistan and Iraq, and 
what exactly did we accomplish? You see. You know, so putting 
things in perspective, we are a can-do, successful nation. We 
will get this done. And we have advantages that no other place 
on Earth has.
    So, the overall message of this, let's not borrow too much 
trouble from the future. This will be done, and we will figure 
out a way to do it. And that, to me, is one of the most 
encouraging things that I could take from this hearing.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes Mr. Lamborn of Colorado for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you all for being here.
    And General Hyten, greetings from Colorado Springs. I know 
people that work for you or associated with contractors helping 
you, and they certainly have a lot of respect for what you are 
doing, so thank you so much.
    For any one of you, I have a question. Now, I was concerned 
because in a March 27 House Science Committee hearing, Garrett 
Reisman or Reisman of SpaceX testified, quote, ``With each 
flight, the Falcon 9 launch vehicle also continues to undergo 
improvements to safety, reliability, and performance,'' 
unquote. Does that mean that it is a moving target? That--I 
mean--General Hyten.
    General Hyten. Yes, sir. So the interesting thing about 
launch is that pretty much every launch that we fly, doesn't 
matter whether it is a ULA launch, an Atlas, a Delta, whether 
it is a SpaceX launch, a Falcon 9, there is almost always 
first-flight items on that launch. We continue to mature the 
technology. We continue to provide additional capability. We 
focus on that, and we have a very disciplined process for how 
we bring those things on.
    The certification process incorporates all of those things 
coming in. It is not going to be an issue for us working 
through that. We know how to do that kind of business. We know 
how to bring new capabilities on. We will continue to do that 
with SpaceX just like we have done with ULA, sir.
    Mr. Lamborn. Would any of you add to that, or does that 
pretty much sum up what your thoughts are?
    Secretary McFarland. That is what we consider our state.
    Mr. Lamborn. Okay. All right. Thank you.
    And secondly, General Hyten, at a February 25 hearing at 
the Senate Appropriations Subcommittee on Defense, the 
Secretary of the Air Force stated that, quote, ``SpaceX has not 
really been part of our EELV program yet, right. They are 
trying to get certified to be part of it, but if you look back 
in time they have had various mishaps,'' unquote.
    What was the Secretary of the Air Force getting at by that 
statement?
    General Hyten. So, the Secretary is pointing out, and we 
have had the same issues with launches, is that not every 
launch goes perfect. And so SpaceX has had some internal 
anomalies in the launches that they have done. Those are 
proprietary information, so I would be glad to share the 
details with you in a private setting, but I don't want to 
share them in a public setting. But we have also had the same 
things with Atlas launches. We have had the same thing with 
Delta launches.
    And we go back and look at that. But the most important 
thing to remember is each one of those was a mission success. 
The actual rocket was successful as we went through. So, the 
Secretary was talking about issues with SpaceX in terms of 
anomalies that they have had. We continue to pursue those 
anomalies. We have worked those out with SpaceX. We have also 
done that with ULA. That is a normal way of working in the 
launch business. We will continue to do that with SpaceX.
    The tricky part is that you can never extrapolate them into 
a national security space launch, because some of our 
requirements are very stringent and so when you ask the 
question, would the Falcon 9 have worked if you were launching 
this kind of rocket, it starts turning into a multidimensional 
helix where you just can't figure out all the variables and 
turn it into an answer that makes sense. But the good news is 
that every one of their launches have worked. It has been a 
mission success. We just have to work through the issues with 
them.
    Mr. Lamborn. I am just going to finish up with a very 
general question just to illuminate my understanding better. 
What is at risk? If you take one of these heavy launches, how 
much time is involved in putting the bus together and then how 
many dollars are involved, in a worst-case scenario? And I 
don't want to go into detail, and can't, on what capability we 
lose. That is huge also. But how much time do we lose, and how 
many dollars do we lose with one of these heavy launches?
    Dr. LaPlante. You mean with the heavy-launch failure?
    Mr. Lamborn. Exactly.
    Dr. LaPlante. Yes. Well, and as has been said by several of 
my colleagues here, of course, we are--launching is a means to 
an end. The important thing is what we are launching into 
space. That is what we actually care about. And those are at 
least $1 billion a pop. Sometimes more. You lose the 
capability, as General Hyten said, about what happened in the 
late 1990s. And just remind people the type of things we are 
putting into space are not just communications, but it is 
communications.
    I mean, essentially, if you think of the nuclear triad we 
have, we have the bombers, we have the ICBMs [intercontinental 
ballistic missiles], and we have the submarines, the command 
and control of it, which we care about, but with the 
indications and warning of that, is what we put into space. It 
is what we assure and have been assured the country and the 
President for decades that we have a reliable deterrence system 
that he or she or the leadership will know if there is 
something happening in a timely way so they can make a 
decision. So this is serious, serious stuff.
    So, you lose the money, you potentially lose the 
capability, and so it is a big deal. And then as General Hyten 
said, you know, the company--we have to be concerned if the 
company is going to be run out of business depending on the 
company.
    Mr. Lamborn. And lastly, I am running out of time, how many 
years are we talking about to duplicate it?
    Secretary McFarland. So, you have to rebuild the system 
that you launched, and some of those systems take 5, 6, 8, 12 
years.
    Mr. Lamborn. Well, thank you so much. This is so critical. 
I appreciate your help.
    Mr. Rogers. Gentleman's time has expired.
    Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Ms. McFarland and Dr. LaPlante, given the importance 
associated with the payloads we are talking about here, I think 
is described by General Hyten, do you agree that any future 
launch contracts should put a premium on full certification 
based on demonstrated launch success?
    Secretary McFarland. Yes, sir, I do.
    Mr. Coffman. Okay.
    Dr. LaPlante. Yes, but what I also think we need to do, we 
need to challenge ourselves as to make sure we are doing it as 
efficiently as possible, and, you know, we need to look at the 
process to make sure of it. But yes, I do.
    Mr. Coffman. General Hyten, anything?
    General Hyten. The certification process--this is the first 
time we have been through a certification process, Congressman. 
And so the first time you go through with something, the nature 
of a bureaucracy is to make sure that you have everything 
covered. And so we did that. When you look back in hindsight, 
and we have just had an independent team look back and we will 
have some reports come through the Secretary of the Air Force 
shortly, but when you look back, there is probably some things 
we can do to streamline that. That is what Dr. LaPlante is 
referring to. I think there are smart things we can do in the 
future. You always learn the first time you go through 
something.
    Mr. Coffman. Major General Mitchell.
    General Mitchell. Yes. That is being looked at by General 
Larry Welch, who was a former chief of staff for the Air Force. 
He actually did two things, one for General Greaves in the 
certification of the Falcon 9 1.1 specifically, and then he is 
looking at the general overall process on part of that team 
that is supporting him in that look of can we improve the 
process without giving up mission assurance. And General Welch 
is very adamant about that because he goes back to the 1999 
failures when he did the broad area review, and he has been 
engaged ever since then.
    Mr. Coffman. Ms. McFarland and Dr. LaPlante, I think that 
everyone can agree that competition in any industry is a 
healthy dynamic that drives down cost and increases value to 
the U.S. Government. But, do you also agree that the foundation 
of any head-to-head competition between launch providers needs 
to be based on fair and open competition, taking into account 
any government-provided resources such as launch facilities, 
engineering services, or any other below-value government 
contribution?
    Secretary McFarland. Congressman, absolutely. When we go 
through competition in the future, we have to be very cognizant 
of what contributions are held where, and that actually is part 
of the competition process when you equate cost to cost.
    Dr. LaPlante. Congressman, yes, Adam Smith is correct. 
Competition is good. But we have to do our level best when we 
are doing it to make sure you look at it from every angle and 
make sure it is a level playing field. That is our strategy, 
and so we always are doing that. We have to do that.
    Mr. Coffman. Okay. Any other comments? Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes Mr. Bridenstine for 5 minutes.
    Mr. Bridenstine. General Hyten, you gave an estimate on 
when you think the Falcon 9 Heavy might be certified, and you 
said 2017 was maybe optimistic but you wouldn't bet against it 
necessarily?
    General Hyten. I said 2018.
    Mr. Bridenstine. 2018.
    General Hyten. And I would not bet against SpaceX. I think 
anybody that has bet against SpaceX in the last few years has 
lost. So, I think they are a very inventive company that has 
demonstrated mission success. But the heavy missions are very, 
very demanding. It is a whole new level of complexity that you 
are adding to the problem that they haven't faced yet in the 
missions that they have done. So, it is another step up. That 
is why, if you are asking me, I think that is a risky 
proposition to get there. But, again, I would not put it past 
them.
    Mr. Bridenstine. So, we have heard, and I think a lot of 
people on this panel have expressed the concern, especially the 
chairman--and I appreciate it and certainly I understand it--
that we have a risk as it relates to heavy launch. But, we have 
also heard, Mr. Bruno very clearly articulated that they are 
not going to retire the Delta IV Heavy, and we are hearing that 
the Falcon 9 Heavy could be certified by 2018, maybe 
optimistically, 2019, I would think, would be more, you know--
we would be more sure of.
    So, the reality is, we are really not at risk of losing a 
redundant launch capability; is that correct?
    General Hyten. The one modification I made to the analysis 
you went through would be, what General Mitchell pointed out, 
is that once they are certified, they are 2 years away from 
doing a mission.
    So, the way you look at the problem is that--is when we 
look at every category of lift that we are talking about, we 
are really talking about a potential gap that we have to worry 
about--``gap'' is probably not the best term. ``Transition'' is 
probably the best term--a transition period from 2018 to 2022, 
that we have to somehow work with Congress to figure out how we 
are going to transition, because when you get out to 2022, it 
is pretty easy to understand the competitive environment at 
heavy, intermediate, and small lift that can be out there in 
2022. The challenge is how do you transition from 2018 to 2022? 
That is what we need to work with the Congress to do.
    Mr. Bridenstine. With the heavy-lift requirements of 
satellite communications, for example, it would seem like there 
is a large market here for commercial industry as well as for 
the military. When you think about the entire market for heavy 
lift, can you guys share maybe some--shed some light on what 
percentage is commercial and what percentage is military?
    General Mitchell. Yeah, I can speak to that. When you are 
talking the commercial satellites, you are not talking the 
heavy lift we are talking about. They don't need a Delta IV 
Heavy. They can do that with a smaller rocket. And----
    Mr. Bridenstine. Even to get to GEO?
    General Mitchell. Yes, sir. They go to a geotransfer orbit, 
and then from the geotransfer orbit they boost themselves up to 
their final location.
    Mr. Bridenstine. Okay.
    General Mitchell. So the Falcon 9 1.1, can handle that, 
some of the bigger ones. The Falcon 9 Heavy but, you know, you 
don't have to use all of its capability.
    Mr. Bridenstine. So, there is not a whole lot of 
opportunity to bring down the costs by relying on commercial--
--
    General Mitchell. No, sir. This is like the Titan IV was. 
We launched 41 Titan IVs. It is a very expensive rocket. It is 
a unique mission. It is very heavy. And the NRO payloads are 
the only ones that require that heavy lift capability today at 
the Delta IV Heavy category. And when we did the RD-180 study, 
we poked at that a little bit and we got back that that 
requirement will be in place until at least 2030.
    Mr. Bridenstine. Okay. For Dr. LaPlante, you brought up--
and I think it is perfectly appropriate and I would like to 
echo it--that the challenge that we are living under right now 
is born of the sequester. And if you would highlight for us, 
because now we are looking at passing a budget, and the budget 
is going to have a number, a sequester number for DOD and then 
there is going to be OCO [overseas continency operations] 
dollars.
    My question for you is, can you shed light for us, what are 
the implications for OCO dollars? Does that help you? Does that 
hurt you? I know the dollars are different. Can you maybe shed 
a little light on that?
    Dr. LaPlante. Yeah, I will try to and then maybe also defer 
to Ms. McFarland. So, in the case of the space--of this space-
launch issue, we have I believe the number in the President's 
budget for 2016 and beyond for the 5-year is somewhere a little 
short of $300 million. Part of that, we are going to know a lot 
more when we get these RFPs back because we are going to find 
out what is real in public/private partnership.
    Of course, that $300 million is like everything else, going 
to be under the scrutiny with the sequester or if we end up 
having to increase it, if we find out that it has got to be 
$500 million. Now, can that be helped by OCO? I don't know how 
that could be. I am having trouble thinking of the color of 
money. But I will also ask Katrina to answer.
    Secretary McFarland. So, Congressman, the problem is that 
we currently budgeted in the President's budget for a 
competitive launch service, that was based on the use of Atlas 
Vs. Now you add the complexity of trying to enter in with a new 
launch system, the Next Generation Launch System, and then you 
try to find out what the public/private venture is that you can 
actually afford.
    It was very interesting that the chairman pointed to the 
two industrial folks and they came back with no real response 
for what is the business case. And we have to provide a 
business case, because indeed, one of the things that you are 
poking at when you are trying to do a public/private venture is 
that you know you end up with something better than you 
started, not transferring from one monopoly to another as part 
of that.
    So, indeed, I believe there is a concern here in 
sequestration: Can we afford it, and will we be able to put the 
money into the system for the long term that they see a 
business case that they can see money there to get, for us to 
be able to assure space launch.
    Dr. LaPlante. Yeah. And just to add onto Ms. McFarland, in 
a case, an example, and this is maybe just a simple example is, 
do you have to guarantee a certain number of minimal launches 
for them to close their business case? And is there enough 
launches where you could have more than one person with a 
minimum guarantee? Things like that.
    You were also asking very astute questions about what is 
the commercial marketplace for some of this, because that is 
part of the business case too, right? And that is why it was 
very important to hear from General Mitchell because his 
study--which by the way, is really called the Mitchell 
Commission, he just is too modest to call it that--looked at 
the market for these things and it is not what you might 
initially expect, it is particular with the heavies.
    Secretary McFarland. If I could add to that, the 2014 
commercial--thank you. I am an engineer. The 2014 commercial 
space transportation forecast that came out has a flat line on 
what they anticipate the future brings in terms of commercial 
and NGO [nongovernmental organization] and government. So, this 
business case is very interesting to us. They are all competing 
for this same size pie.
    Mr. Bridenstine. And if I may, Mr. Chairman, so let's 
pretend there was a third entrant. Would you say, that the 
market can't support that?
    Dr. LaPlante. I would defer to General Mitchell.
    General Mitchell. So, I would say, I think it is going to 
be interesting to see how you support two. Three would be even 
more challenging. Because last year, as was reported by 
SpaceNews, there was 18 competitive commercial launches 
awarded. Of those 18, worldwide, of those 18, 9 were won by 
SpaceX and 9 were won by Arianespace. Nobody else won any; 
Proton's kind of grounded, they are not flying real well. And 
the reason it is so small is every country that has a 
capability vectors their satellite builders to their rocket.
    So, there may be 50 launches worldwide but only 18 of those 
are going to be competed, last year as an example. And the 
document that Ms. McFarland refers to that 50 kind of stays 
stable and there is about 15 to 20 every year that is 
competitive. So, you don't have much to split up because 
Arianespace is going to win half of them typically, and their 
consortium will continue to subsidize them to make sure they 
win half of them so that they remain viable. So, you are just 
not going to get all of that market.
    And so, the DOD tends to be around 10 to 12 missions a 
year. NASA has three or four that fall on this category. And 
when you add them up, there just is not a target-rich 
environment out there to go sell rockets. And even if you get a 
cheap rocket, that doesn't mean more people are going to build 
satellites just because of the launch vehicle is cheap. As Mr. 
Bruno said, it is 10 to 15, 20 percent of the cost of the 
stack. So, people aren't going to go build more satellites. 
They are going to do this in a business case.
    Now, there are some out there that are talking about 
blotting out the sun with small satellites, and there is a 
couple of investments that are going on to do that. That is the 
same thing we heard in 1999, and that fell apart, which led us 
to kind of where we are in the EELV program now. They may be 
successful this time, but I guess we are a little bit jaded 
from the first experience to say let's go bank on all those 
commercial guys showing up again. So, I think it is going to be 
difficult to support three. It will be a challenge just to make 
two viable.
    Mr. Rogers. I thank the gentleman.
    I just want to close up and get some things on the record. 
And I do want to pick up on that point though. What you just 
described is what worries me. And you heard me ask Ms. Shotwell 
that when the Delta IV goes offline in 2018 isn't she going to 
have a monopoly--and she didn't want to say it but we all knew 
the answer--that worries me, because of what you just 
described. The whole reason that ULA came into existence is 
Boeing and Lockheed couldn't make the business case to stay in 
the market so we basically created this partnership so that the 
national security interests were taken care of.
    I love it when billionaires want to spend their own money 
to do cool things that help the country, but it's still a 
business. And you just described the very flat marketplace that 
either SpaceX or Blue Origin or whoever decides they want to 
pursue that, and then in a few years they go, you know, we are 
really not making any money. And we can't let this 
infrastructure go away because we still have national security 
demands.
    So, I don't want it to look like at any time that the 
government is putting their finger on the scale to help 
anybody, except the government. And that is to make sure we 
have the national security infrastructure in place to take care 
of our security.
    But having said that, I want to go back to General Hyten, 
that you talked about the transition period. You kind of summed 
up in there, that 2018 to 2022 period, that I was kind of 
trying to get to in my earlier questioning about this 
certification process. There is that period where we could have 
no assured access to space, which every one of you have said 
for the record, or at least the two of you, let me get you: Is 
that period of--acceptable to you of not having assured access 
to space period?
    General Hyten. We have to have it every year, every minute. 
That is critical to our national security.
    Mr. Rogers. And General Mitchell, I would say you would 
agree?
    General Mitchell. Yes, sir. As long as you refer to assured 
access to space in the policy statement that it is two 
providers. We will be able to have one provider. It is just 
going to cost more.
    Mr. Rogers. Yeah. And do you think we are going to give 
them $1 billion? With sequestration, it is not an option.
    General Mitchell. I agree with you, sir. All I can say is 
in the Titan era, we were spending about $500 to $550 million a 
launch in then-year dollars, which was in the 90s. I don't know 
what that would equate to today, but it is probably 3 quarters 
of a billion that we were spending back then to launch, and we 
launched 41 of them.
    Mr. Rogers. Yeah. Well, anyway. I think all of you have 
made it clear that not having assured access to space is not an 
option from our national security standpoint.
    Now, the thing I want to kind of--the last thing I want to 
touch on is this replacement to the RD-180. And this is more 
for the record. I know it is late, but this is just such 
important stuff. My understanding is, there are two companies 
that are trying to build this engine at present to replace the 
RD-180, Blue Origin and Aerojet. Am I correct? Is there anybody 
else that any of you know of that may compete for this?
    General Mitchell. I would not refer to it as replacing the 
RD-180. I would refer to it as----
    Mr. Rogers. Building the American version.
    General Mitchell [continuing]. A heavy-lift American-made 
engine that is an oxygen-rich stage combustion. But they are 
not really to replace the RD-180. It is not like they are going 
to throw it under the Atlas body.
    Mr. Rogers. That is not the way I understand it. I think it 
is supposed to be thrown under the Atlas.
    General Mitchell. No, sir. The Blue Origin is a methane 
engine. It can't----
    Mr. Rogers. You are getting ahead of me now. The whole 
point is, as you heard Mr. Bruno testify, he is about to run 
out of these engines. Even if we fix the 1608, there is going 
to have to be an American-made engine to replace that mission. 
Now, you are getting technical in talking about how some of 
these folks would not be able to build an engine that would fit 
basically.
    General Mitchell. Yes, sir. You are going to have to change 
the package to whatever the engine is. You build the rocket 
around the engine. So, just try and, you know, jack up an 
Atlas, and say, I am going to take an RD-180 out and I am going 
to put something underneath it. Not going to happen.
    Mr. Rogers. Well, you are getting ahead of me. But let me 
ask this question then: Do you believe--and I will start with 
you, General Mitchell--that either of those two companies could 
build an American version of a rocket engine to replace the RD-
180 within the next 3 years that would be certifiable that we 
could use?
    General Mitchell. Not within the next 3 years.
    Mr. Rogers. How about the next 5 years?
    General Mitchell. I would say it is 5 to 7.
    Mr. Rogers. Five to seven.
    General Mitchell. And I would say that an RD-180 class 
engine with that kind of thrust they could certainly do. But 
that is why I segregate from an RD-180 specifically because it 
is an 875,000-pound thrust engine.
    Mr. Rogers. Right.
    General Mitchell. So, when you are talking that class of 
engine, yes, they could build engines to do that but then they 
have to build a different rocket body to take advantage of 
those rockets.
    Mr. Rogers. And do you think that limited to just those two 
companies?
    General Mitchell. There is nobody out there right now, 
although----
    Mr. Rogers. Nobody else out there doing it?
    General Mitchell [continuing]. Although SpaceX is looking 
at building a thing called the Raptor engine, which is a 
million-and-a-half pound thrust, but they are very, very--they 
are way behind either Blue Origin or the AR-1 at this point in 
time. So----
    Mr. Rogers. And you say, in your opinion, those two 
companies at best we are looking at a 5- to 7-year timeline 
before they would be ready to launch something?
    General Mitchell. Yes, sir.
    Mr. Rogers. General Hyten, your opinion?
    General Hyten. Yes, sir. And I would reference Mr. Bruno's 
testimony earlier where he said that, even with the AR-1, he is 
going to have to extend the tank of the first stage of the 
Atlas V; and with the BE-4, Blue Origin engine, he would have 
to basically come up with a completely new tank, much larger in 
diameter because of the physics. So, either way you go with 
those engines, there is going to be a new rocket that is built 
around it. But I agree with the timeframe.
    Dr. LaPlante. Yeah, I agree and the 5- to 7-year number, it 
is no coincidence that General Mitchell said it because that 
was really the view of his commission. And almost everybody I 
respect in this community, the scientists and engineers, use 
that same timeframe. And that is not, by the way, bureaucracy; 
although, we certainly know how to do that. And it is not 
money. It is the engineering that it takes and the development 
is driving 5 to 7 years.
    Mr. Rogers. Ms. McFarland.
    Secretary McFarland. I really can't add anything further, 
Congressman. It is definitely a challenge to----
    Mr. Rogers. But my question is, do you concur it is a 5- to 
7-year timeline?
    Secretary McFarland. I concur.
    Mr. Rogers. Okay. Now, let me--and I promise it is my last 
question. What I would like to see happen, and this is me, and 
I am not an engineer, I am not a rocket scientist or any of 
that stuff, but I would like to see us put out an RFP for an 
American-made engine that is our version of the RD-180 to try 
to stay in the same technology. Because, while I have heard Mr. 
Bruno's optimism about this methane that Blue Origin is talking 
about, it has been talked about for decades and nobody's been 
able to pull it off.
    Now, Jeff Bezos may be able to do it. He is a really smart 
guy. SpaceX may come up with an option that is different. But, 
we know the technology, the kerosene-based technology from RD-
180 works. So, I want to see us come up with our version of the 
RD-180, the American-made version, and stay within that same 
technology realm.
    My question is this: Do you think that it is practical for 
us to put out an RFP to do what I just described and expect 
market competition to do that? And I would ask Ms. McFarland to 
respond.
    Secretary McFarland. Well, I will start, Chairman. The 
practical that you had in your question is most important. If 
you go back to my conversation about a public/private venture 
and a business case, the problem with trying to have us solicit 
and have an engine built, means somebody has to build a rocket 
around it. So, if I were to go out with a rocket, if I was to 
go out with a request for a rocket, that I would say ask to 
have someone take on as a business case to launch for us under 
services, that is a more practical approach.
    Mr. Rogers. But now, see, you moved away from my premise. 
The premise of my question is, this American version of the RD-
180, which means it would fit the Atlas V. I don't want to 
build another rocket. That gets us down another pig trail that 
I don't want to go. I want to launch what we are launching now 
and not build a new rocket.
    So, is it realistic, if we put in an RFP, to ask for the 
American version of the RD-180 to be built by the same 
technology that would fit an Atlas V, would we get market 
competition from the players in the universe that you are 
familiar with?
    And I guess Dr. LaPlante wants to take that.
    Dr. LaPlante. I will give it a shot in how we are thinking 
about it and see if this addresses your question.
    So, you are asking--essentially the question is, when do we 
do the down select and pick exactly, you know, something like 
the RD-180 or not. And you could do that right now in how you 
issue the RFP, sure.
    Well, our plan is not to do that. Our plan is to issue the 
RFP that is broader than that, and get as many, as I said 
earlier, it is four people under contract. So, let's see what 
comes in with an RD-180 like, in your words, perhaps with an 
Atlas. Let's see what comes in with the AR-1. Let's see what 
else comes in. We would like to get these guys under contract 
and see what is serious about the public/private partnership 
and then evaluate the technology, get them along and then we 
will down select it. You may be going right to where we end up.
    It is a question of whether we restrict it now before 
issuing the RFP or later. Our approach is to do it later 
because, you know, it is funny, until you get people under 
contract, you kind of really don't--you don't get the real data 
and you don't get to see the real designs and you don't get to 
see and really test it out. And I believe we are responsible 
for the taxpayer to check that stuff out, and I don't think it 
is going to slow it down at all. And so, but that is kind of 
essentially our approach. But we will be happy to engage with 
you further as we develop this.
    Mr. Rogers. General Hyten.
    General Hyten. So, I will just echo what Dr. LaPlante said. 
As you look at the future, and you look at where we are moving 
into engine technology in the future, we also have to look at 
the law. And the law tells us we want to preserve competition, 
and we do not want an engine that is only available to one 
provider. And so, it is essential for us to comply with the 
law, and it also makes business sense to do it that way, is 
that we go out and find out what is available on the open 
market today. And that has got to be the first step. I think 
that was the intent of Congress in the Authorization Act that 
was passed, to make sure that we have that capability and that 
is the process we are going down.
    Mr. Rogers. If we did what you just described, we wouldn't 
have competition because there is only two players in the 
market, Blue Origin and Aerojet. And Blue Origin is talking 
about a methane engine. It would never fit the Delta V.
    General Hyten. Yes, sir.
    Mr. Rogers. I mean the Atlas V, I am sorry.
    General Hyten. Right. Yes. The Atlas V. The Authorization 
Act specifically says you can't build an engine that is only 
available for one provider. And so we have to make sure that we 
are in that. So, we want to look at what Blue Origin can do. We 
want to look at what they can do, but eventually we are going 
to have to make that decision. So, what Dr. LaPlante says I 
agree with completely. Eventually, we are going to have to make 
that decision.
    Mr. Rogers. I am following you now.
    General.
    General Mitchell. I agree totally. The only thing I would 
say is, predicting is difficult business, particularly when it 
is about the future.
    Mr. Rogers. Yeah. Thank you.
    Chair now recognizes ranking member for any final questions 
he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I have no more 
questions. I was just here to chaperon you.
    Mr. Rogers. That means give me the hook.
    I would to close with this: We may have some--I know we 
have some written questions that we may need to submit to you 
all for the record and not keep you here any longer, and the 
same thing for our first panelists. Both are still here. So, if 
we submit written questions to you, we will get them to you 
within the next 10 days, and I would ask you to try to timely 
respond to those for the record.
    With that, I thank you for your participation. This hearing 
is adjourned.
    [Whereupon, at 6:28 p.m., the subcommittee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                             March 17, 2015

=======================================================================

 
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 17, 2015

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. SANCHEZ

    Mr. Bruno. ULA has successfully launched 95 times since inception 
in December 2006. ULA has offered multiple configurations to best serve 
our customers on the Delta IV, Atlas V and Delta II vehicles. The Delta 
IV and Atlas V vehicles have successfully flown 82 times, dating back 
to before the inception of ULA.
    For Atlas V, ULA flies a 4-Series (4M payload fairing) and a 5-
Series (5M payload fairing). These two configuration classes have 
launched successfully 35 and 18 times respectively. The core vehicle 
and upper stage are the same for every vehicle configuration with the 
exception of payload fairing size and number of solids, which varies 
based on customer requirements.
    For Delta IV, ULA also flies a 4-Series (4M payload fairing) and a 
5-Series (5M payload fairing). For these configuration classes, ULA 
provides additional solid rocket boosters if required. The Delta IV 
Intermediate booster stage is the same with the fairing size, upper 
stage size and number of solids varying to support customer 
requirements. In addition for Delta IV Intermediate, ULA flies the 
Delta IV Heavy.
    ULA has demonstrated reliability through its configuration classes. 
The specific configuration is dependent on solid rocket boosters. The 
exact configuration is based on customer need. Below, please find the 
missions flown by ULA for each configuration.   [See page 17.] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Mr. Bruno, why are you planning to phase out the 
intermediate (single stick) Delta IV launch vehicle?
    Mr. Bruno. The Delta IV Medium-class is entirely redundant to the 
Atlas V-class in terms of its performance.
    We have maintained these two systems all this time in order to 
satisfy the country's need for assured access, which is to say two 
independent systems so that in the event that there might be a failure 
or a flaw in one system there would still be a second system to be able 
to launch our critical National Security assets.
    In this new environment where the policy has changed, to assured 
access through the existence of two providers I will now retire the 
Delta Medium-class of space launch vehicles when we have completed our 
current requirements within the manifest.
    The last scheduled Delta IV Medium mission is WGS-10 in CY'19. This 
is part of the Evolved Expendable Launch Vehicle (EELV) Phase 1 
procurement. In response to the Phase 1 Acquisition strategy signed by 
USD(AT&L) with a total USG requirement for 50 cores, of which 36 were 
to be procured using a block buy approach and the remaining 14 cores 
would be made available for competition, ULA committed to its Atlas V 
industrial base for 29 cores and Delta IV industrial base for 21 cores. 
The Delta IV cores were specifically for the requirements identified in 
the block buy (Phase 1) and the Atlas V cores were to support Phase 1 
and 1A missions. This commitment has provided DOD with the over $4B of 
savings recently identified by the GAO in its annual assessment of DOD 
Acquisition Programs, dated March 2015. Since it is at least a 36-month 
lead time (from order to launch) for Delta IV hardware, coupled with 
the non-competitive prices associated with Delta IV, ULA will not be 
offering Delta IV single core vehicles to support Phase 1A or 2 mission 
procurements.
    Mr. Rogers. Ms. Shotwell, you were recently quoted in the media 
stating that SpaceX is working on a higher-thrust engine. Please 
provide details on the associated planned hardware and software changes 
in the engine and launch vehicle. Will this be the new baseline launch 
vehicle configuration going forward, and when is the first launch 
planned for?
    Ms. Shotwell. SpaceX is planning to fully optimize the Merlin 1D 
engines on future flights of the Falcon 9 rocket. This optimization 
will enhance the existing Merlin 1D engine, which has a 100% success 
record on 13 consecutive missions and currently operates at 
approximately 85 percent of its thrust capability, and will qualify the 
engine to 100 percent thrust. The engine is in qualification at this 
time. SpaceX is currently planning the first launch of this vehicle for 
a commercial customer later this year. SpaceX would be pleased to 
provide the Committee with proprietary, detailed information about the 
Falcon 9 launch system directly.
    Mr. Rogers. Do you plan to fund an entirely new launch vehicle and 
all new infrastructure? Do you know what it will, or could, cost the 
taxpayer? What are the risks of this approach, and how does this 
compare with a path that replaces the RD-180 and leverages existing 
launch vehicle and infrastructure investments?
    Secretary McFarland. The Department currently procures launch 
services rather than launch vehicle hardware for the Evolved Expendable 
Launch Vehicle (EELV) program requirements, and is committed to working 
with industry on how to continue providing these services utilizing 
domestically-produced propulsions systems. Our strategy is to 
competitively invest with industry, to develop launch capabilities able 
to support National Security Space (NSS) requirements. The ultimate 
objective is access to two domestic commercially viable launch service 
providers utilizing domestically produced propulsion systems in 
accordance with statutory requirements and National Space 
Transportation Policy.
    Based on our initial review, we do not know today the level of USG 
investment required, but prior program experience suggests it will be 
less than the cost of a government run standalone engine development 
program. The Department has released a Request for Proposal to industry 
that solicits innovative solutions to a performance based set of 
requirements. We expect these solutions may range from new launch 
vehicles and infrastructure to evolution of existing launch vehicles 
and infrastructure. The Department will assess cost, schedule and 
technical elements of these commercially based solutions and 
incorporate them into a multi-step acquisition approach that will 
result in new or evolved systems meeting all of our NSS launch 
requirements.
    The risk to this shared investment approach is whether industry 
chooses to participate. Industry must perceive that a viable business 
case exists and be properly incentivized to develop capabilities for 
new launch vehicles and infrastructure investment that meet the demands 
of the commercial satellite market and NSS needs.
    The Department is committed to transitioning off the RD-180 but a 
Government led program that is limited to replacing this engine would 
not necessarily result in a new launch capability. Further, it may run 
counter to promoting competition in the launch service provider market 
for NSS requirements.
    Mr. Rogers. Can the DOD rely on the domestic commercial launch 
provider market to the meet the national security requirements for 
assured access to space? What are the risks of this approach?
    Secretary McFarland. The Department does not believe it can rely on 
the commercial satellite market alone to drive domestic launch service 
providers to develop or offer systems that meet all of our National 
Security Space (NSS) launch and assured access to space requirements. 
As the Department's launch rate tapers down over the next decade, 
launch service providers may decide to maintain viability by tailoring 
their solutions to the commercial satellite market, a market which is 
expected to remain relatively stable at least through 2023. As this 
market typically consists of smaller spacecraft launching into less 
demanding orbits, unique NSS requirements could be viewed as niche 
markets with their own specific business cases that, without government 
investment, could go unaddressed.
    Moving forward, our strategy is to invest in launch capabilities 
that enable at least two domestic commercially viable launch service 
providers capable of supporting NSS requirements. The Department's 
challenge, and the risk of relying on the commercial market, is making 
sure NSS requirements are not excluded as domestic commercial 
capabilities are developed. The industry must perceive that a viable 
business case exists so they are incentivized to develop capabilities 
that are crucial to meeting NSS requirements and the demands of the 
commercial satellite market.
    Mr. Rogers. Why is the EELV Launch Capability arrangement in place, 
and how does this benefit the U.S. Government? Is the DOD still 
evaluating the appropriate contracting structure in the future, in 
terms of launch services, capabilities, and infrastructure, to maintain 
assured access to space and have fair competition?
    Secretary McFarland. The Evolved Expendable Launch Vehicle (EELV) 
Launch Capability (ELC) construct with United Launch Alliance was put 
in place in 2006 to preserve the industrial base at a time when there 
was not sufficient commercial launch market to do so. The ELC line item 
in the current EELV FA8811-13-C-0003 contract continues to provide the 
Department substantial benefits in both launch readiness and 
operational flexibility when navigating the dynamic DOD, Intelligence 
Community and Civil and Commercial manifest.
    As New Entrants enter into the market and the EELV program 
transitions into a competitive environment, the Department is 
evaluating the appropriate method for consideration of launch readiness 
infrastructure costs.
    Mr. Rogers. Do you plan to fund an entirely new launch vehicle and 
all new infrastructure? Do you know what it will, or could, cost the 
taxpayer? What are the risks of this approach, and how does this 
compare with a path that replaces the RD-180 and leverages existing 
launch vehicle and infrastructure investments?
    Dr. LaPlante. The Air Force plans to transition off the Russian 
supplied RD-180 via a launch service approach which may or may not 
result in a new launch vehicle and all new infrastructure. The Air 
Force released a Request for Information (RFI) in August 2014 to 
solicit industry inputs on propulsion and launch systems. The 
overwhelming conclusion from the RFI responses is that a solution at 
the propulsion level does not necessarily result in a launch vehicle 
solution capable of meeting the National Security Space (NSS) 
requirements. The Air Force plans to leverage the commercial market 
with the goal of two (or more) domestic launch service providers in 
innovative public/private partnerships, selected through competition, 
and able to support the entire NSS manifest.
    Part of the plan is shared investment of the development to support 
the entire NSS manifest, and the level of shared investment is still to 
be determined with industry through RFI and Request for Proposal (RFP) 
responses; thus we do not have the exact costs for each solution at 
this time.
    No path is without risk, and engine development by 2019 is risky 
but may be achievable. However, the path we have laid out reduces risk 
by leveraging industry's on-going engine development capabilities. 
Conversely, solely replacing the RD-180 increases the risk that a 
launch service is not ultimately secured or the secured launch service 
is not ultimately competitive. An engine alone will not launch us into 
space, as the engine must still be integrated and tested in a rocket. 
It is near impossible to exactly replicate an existing engine or the 
performance features of an existing engine due to different 
manufacturing facilities, manufacturing processes, and material 
sources, likely resulting in engine with weight and thrust differences. 
Any engine changes will drive launch vehicle changes. Launch systems 
are customarily designed around the engine as the lowest risk approach. 
Furthermore, simply replacing the RD-180 engine in an attempt to 
minimize launch vehicle changes will likely result in a launch system 
that is not competitive, as the launch industry has fundamentally 
changed over the past decade. Therefore, we have to make sure we 
partner with industry, and that our shared investment with launch 
providers is a workable and cost-effective approach.
    Mr. Rogers. Can the DOD rely on the domestic commercial launch 
provider market to the meet the national security requirements for 
assured access to space? What are the risks of this approach?
    Dr. LaPlante. Yes, DOD can rely on the domestic commercial launch 
provider market to meet the national security requirements for assured 
access to space as long as there are two or more commercially viable 
providers. Federal Aviation Administration Commercial Space 
Transportation Committee forecasts and Year in Review reports indicate 
a stable competitive commercial market. However, this is only a 
projection. A risk in relying on the domestic market is that it could 
enter a downturn and launch providers may not remain viable. With DOD 
as their sole customer, domestic providers would have to increase 
prices to make their business cases close.
    Mr. Rogers. Why is the EELV Launch Capability arrangement in place, 
and how does this benefit the U.S. Government? Is the DOD still 
evaluating the appropriate contracting structure in the future, in 
terms of launch services, capabilities, and infrastructure, to maintain 
assured access to space and have fair competition?
    Dr. LaPlante. The EELV Launch Capability (ELC) arrangement was put 
in place in 2006 to ensure the launch providers could launch when the 
satellites were ready, thus preserving our nation's assured access to 
space IAW statute and the National Space Transportation Policy. During 
this time, many satellites in development were experiencing delays, and 
ELC offered a way to directly negotiate and manage the critical launch 
overhead and infrastructure costs independent of fluctuating launch 
schedules and ops tempo since we had to pay the costs anyway. ELC 
maintains operational flexibility to adjust the launch manifest in 
response to NSS requirements. ELC was and is required to maintain this 
flexibility and the readiness of critical personnel that possess unique 
and advanced technical skills to process and launch our most complex 
missions.
    Yes, the DOD is still evaluating the appropriate contracting 
structure for future launch services. The goal of Phase 2 is for the 
Air Force to be able to competitively award launch services to meet NSS 
mission needs (FY18-FY22 procurements for FY20-FY24 launches) to the 
maximum extent possible. A final decision has not been made on how 
launch capability activities will be handled in Phase 2. As we work 
towards developing a successful overarching strategy, the need for some 
sort of ELC will be evaluated with the need to maintain mission 
success, assured access to space, fair competition, and affordability.
    Mr. Rogers. General Hyten, SpaceX has recently made statements 
about a higher-thrust engine. What does the USAF know about the planned 
changes to the engine and launch vehicle?
    General Hyten. SpaceX presented an overview of its planned ``full-
thrust'' Falcon 9 launch system to NASA's Launch Services Program (LSP) 
on 7 April 2015, with the Air Force in attendance. However, SpaceX has 
not formally submitted the changes desired to be accepted under 
certification for the ``full-thrust'' system to the Air Force.
    Mr. Rogers. How will this affect certification?
    General Hyten. The Air Force will determine if the ``full thrust'' 
Falcon 9 is a ``new configuration'', as defined in the New Entrant 
Certification Guide (NECG). Higher thrust alone doesn't automatically 
mean it is a new configuration, but other vehicle system changes that 
accompany that (structures, dimensions, flight profile, etc.) could 
result in a new configuration determination for the vehicle or launch 
system. If certification activities are necessary, they would focus 
largely on the hardware and performance portions of the launch system 
since the Falcon 9 v1.1 certification will have already covered company 
engineering and manufacturing processes (unless those processes have 
been modified as well).
    Mr. Rogers. Will the Air Force be certifying the existing Falcon 9 
version 1.1 and/or the new higher thrust capability?
    General Hyten. Yes. The Air Force is currently wrapping up 
certification of the Falcon 9 v1.1, and anticipates some level of 
verification effort to begin for the higher thrust system once SpaceX 
provides formal notification of changes.
    Mr. Rogers. Do you plan to fund an entirely new launch vehicle and 
all new infrastructure?
    General Hyten. We plan to transition off the Russian supplied RD-
180 via a launch service approach which may or may not result in a new 
launch vehicle and all new infrastructure. Engine development alone 
does not improve our assured access to space posture because 
significant launch vehicle development may be required to use a new 
engine, even if the engine is designed as a replacement. However, 
investing at the launch system level does improve assured access to 
space by harnessing the commercial providers' investments to develop 
launch system(s), including the engine if required, that are 
commercially viable but can also launch all national security payloads. 
Therefore, our recommended plan to transition off the RD-180 is to 
invest with industry partners to develop domestic, commercially viable 
launch systems that also assure access to space for all national 
security payloads, and to competitively procure launch services using 
those systems.
    Mr. Rogers. Do you know what it will, or could, cost the taxpayer?
    General Hyten. We are working with industry to understand their 
business cases for developing commercially viable launch systems, so we 
do not have the costs for each solution at this time.
    Mr. Rogers. What are the risks of this approach, and how does this 
compare with a path that replaces the RD-180 and leverages existing 
launch vehicle and infrastructure investments?
    General Hyten. If we were to develop an engine solution for a 
single launch vehicle (i.e., to replace the RD-180 on the Atlas V), a 
competition could be accomplished at the engine level but the resulting 
engine would favor some launch systems over others. This approach would 
be seen as competitive for the engine developers but anti-competitive 
for the launch service providers. Also, any new engine replacement for 
any existing launch vehicle is still technically risky for two reasons. 
First, the baseline technical risk for developing a high-performance 
rocket engine is high. Second, even a new version of the RD-180 engine 
for an Atlas V launch vehicle may require structural changes to the 
launch vehicle due to the different forces and vibration imparted on 
the launch vehicle by the new engine. From a schedule risk perspective, 
it has historically taken 8 years to develop a new engine, so there is 
a likelihood that a new engine, if started now or currently in early 
development, would not be completed by 2019.
    Mr. Rogers. Can the DOD rely on the domestic commercial launch 
provider market to the meet the national security requirements for 
assured access to space?
    General Hyten. The DOD can rely on the domestic commercial launch 
provider market to meet National Security Space (NSS) requirements if 
there are two or more commercially viable providers. This will require 
the DOD to partner with providers to jointly develop a commercial 
launch service that can also meet NSS launch needs.
    Mr. Rogers. What are the risks of this approach?
    General Hyten. The risk to this approach is that it requires U.S. 
providers to capture enough commercial and civil launch contracts to 
remain viable. If there are not enough commercial and civil launches 
available or if the launch system, once developed, is not competitive 
enough to win commercial and civil launch contracts, launch providers 
may not remain viable businesses. In this case, not only would the 
competitive supply be reduced, the DOD may be forced to procure launch 
services from those providers at a higher cost to assure access to 
space for our NSS payloads.
    Mr. Rogers. Why is the EELV Launch Capability arrangement in place, 
and how does this benefit the U.S. Government?
    General Hyten. The EELV Launch Capability (ELC) arrangement was put 
in place in 2006 to ensure the launch providers could launch when the 
space vehicles were ready, thus preserving our nation's assured access 
to space in accordance with the National Space Transportation Policy. 
It was also created to stabilize the industrial base during a time of 
reduced numbers of launches. The other risk is in the event of a launch 
failure and one provider is unable to fly for an extended period of 
time. Who makes the decision to return to fly and how does one company 
stay in business with the lack of revenue during the down time? We do 
not know the answers to these questions yet. Especially since there has 
been only one provider currently that can meet the entire National 
Security Space (NSS) manifest, ELC was and is used to stabilize the 
engineering workforce throughout dramatically changing launch manifest 
to include NASA and commercial launches. The ELC part of the USAF Phase 
1 contract continues to provide the Department of Defense the required 
operational flexibility to meet its NSS requirements without Request 
for Equitable Adjustment (REAs) or schedule penalties as a result of 
launch slips due to satellite vehicle acquisition issues, first time 
integration delays, or anomaly resolution timelines. The scope of the 
launch capability includes all work associated with supporting launch 
infrastructure maintenance and sustainment, program management, systems 
engineering and the Government's independent mission assurance process 
and launch site operations. Finally, the Phase 1 Block Buy contract 
ELCs portion is a significant part of the earned $4.4B in cost savings 
from the FY12 PB.
    Mr. Rogers. Is the DOD still evaluating the appropriate contracting 
structure in the future, in terms of launch services, capabilities, and 
infrastructure, to maintain assured access to space and have fair 
competition?
    General Hyten. Yes, the DOD is still evaluating the appropriate 
contracting structure for future launch services. The DOD is weighing 
the needs for mission success, assured access to space, fair 
competitions, affordability, and is working to develop a successful 
overarching strategy that fulfills requirements in each of those areas.
    Mr. Rogers. Can the DOD rely on the domestic commercial launch 
provider market to the meet the national security requirements for 
assured access to space? What are the risks of this approach?
    General Mitchell. Yes the DOD could rely on domestic commercial 
launch providers to meet National Security Space (NSS) requirements but 
due to the associated risks I do not think they should.
    While commercial satellite operators and the NSS community both 
desire to have reliable launch systems at a competitive cost point with 
certainty of schedule they differ in their approaches to managing the 
risk inherent in space launch.
    The commercial operators manage launch risk thorough a combination 
of insurance, self-insurance (buying ``spare'' satellites ahead of 
need), designing satellite so they can be manifested on multiple launch 
systems (foreign and domestic) and having contractual milestones that 
allow them to change launch systems if the launch provider does not 
meet them.
    The NSS community does not insure, does not procure satellites 
ahead of need, can only manifest on domestic launch systems by law and, 
since launch system options are limited, do not design all satellites 
to be able to be launched on all launch providers, and has not used the 
same type contractual clauses as commercial satellite operators. So 
given these limitation the NSS community manages risk by employing a 
mission assurance process that is much more in depth and ``intrusive'' 
than commercial satellite operators. The NSS mission assurance approach 
has proven to be extremely effective since the turn of the Century. The 
current provider has adjusted to the government processes even though 
the strict terms of the contracts were for launch services and not 
hardware. It is not clear whether commercially competitive offerors 
would take the same approach to accommodating the government's mission 
assurance processes.
    The bottom line is that National Security is about ASSURING 
CAPABILITY for the National Command Authorities, the Warfighter and the 
Intelligence Community and commercial space is about INSURING their 
revenue stream. The NSS Community needs to be able to apply its mission 
assurance standards on its launch providers as long as the current 
laws, policies and approaches to procuring satellites and launching 
satellites on schedule with no spares and no insurance is in place.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. SpaceX's support of competition in the launch markets 
is appreciated. Please explain SpaceX's objection to permitting future 
purchases of RD-180 engines to allow for an orderly transition to an 
all-U.S. alternative, given that Delta IV is not a commercially cost-
competitive vehicle, even when produced at rate?
    Ms. Shotwell. SpaceX appreciates the support of Congress and the 
Air Force for reintroducing meaningful competition into the EELV 
Program as a means to lower costs, provide true assured access to 
space, and stimulate continuous innovation that will enhance the U.S. 
industrial base. The issue of Russian engines is not related to 
competition--it is squarely related to the assured access to space 
policy. Reliance on the RD-180 engine for national security space 
launch is not consistent with assured access to space and that sending 
hundreds of millions of dollars to Russia's industrial base is not 
necessary when America has multiple options today. As a result, 
Congress passed legislation, with broad bipartisan support, to phase 
out such reliance and leverage existing and future capability. An 
``orderly transition'' to an alternative is available immediately--with 
increased utilization of the Delta and Falcon family of rockets. The 
decision to discontinue the Delta Medium rests neither with SpaceX nor 
with Congress, but with ULA. Whether or not a provider has a 
competitive offering is not an issue for Congress to resolve on behalf 
of that provider; instead, that provider should take steps to place 
itself in a competitive position. Competition will be truly enhanced to 
the extent that the Launch Capability subsidy (approximately $1 billion 
annually) paid to ULA is fully accounted for in head-to-head 
competitions and/or eliminated.
    Mr. Coffman. SpaceX boasts development of a commercial launch site 
``soon'' at Brownsville, TX. Please define the milestones and final 
operational date for this site.
    Ms. Shotwell. SpaceX currently plans to have the launch site in 
South Texas completed in late 2016, and operational in 2017, when the 
first launch is scheduled to occur from this launch site. SpaceX is not 
relying on any federal funds for this launch site.
    Mr. Coffman. Most U.S. Government payloads require performance in 
excess of the Falcon 9 V1.1. How does SpaceX plan to support these 
missions?
    Ms. Shotwell. Falcon 9 can execute roughly 60 percent of national 
security space launches today. SpaceX has self-funded the development, 
qualification, and initial launch of the Falcon Heavy--set to occur 
later this year. Falcon 9 and Falcon Heavy, in just two configurations, 
will be able to execute 100 percent of EELV missions. The Falcon Heavy 
will be certified well in advance of any competitions for missions that 
would require its capability.
    Mr. Coffman. SpaceX current launch has been delayed due to an 
evaluation of helium bottles. SpaceX has had multiple missions impacted 
by helium leaks. What has been done to address this specific issue?
    General Hyten. SpaceX has not had multiple missions impacted by 
helium leaks. During a pre-launch test of a single mission, SpaceX 
experienced a single helium bottle failure which resulted in a helium 
leak. Working with the Air Force, SpaceX has implemented changes and 
enhanced test methods regarding helium bottles, and has successfully 
flown the Falcon 9 a number of times since the issue was detected 
during the pre-launch test. The Air Force and SpaceX continue to work 
collaboratively on New Entrant certification, which will address any 
identified risks and implement USG and SpaceX agreed-to risk handling 
plans to mitigate the risks.
    Mr. Coffman. Would SpaceX benefit from the mission assurance 
experience that resides in the U.S. Government?
    General Hyten. Yes. SpaceX has already benefited from the U.S. 
Government (USG) mission assurance experience with respect to this 
issue. The USG team was instrumental in identification of a potential 
root cause for an F9-010 issue, and recommended the recently performed 
follow-on testing. Additionally, the USG team recommended 
implementation of additional inspection acceptance criteria that are 
now being applied by SpaceX.
    Mr. Coffman. How will SpaceX work with the U.S. Government to 
ensure that systemic issues do not impact future NSS missions?
    General Hyten. SpaceX and the USG team are currently engaged in the 
new entrant certification process designed to evaluate the Falcon 9 
version 1.1 launch vehicle and identify potential risks to National 
Security Space missions. As part of this process, all identified risks 
or systemic issues require development and implementation of USG and 
SpaceX agreed-to risk handling plans to mitigate the risks.
    Mr. Coffman. Is the U.S. Government or Aerospace Corporation 
participating in the helium bottle anomalies?
    General Hyten. Yes, the USG and Aerospace Corporation team has been 
participating in the helium bottle anomaly as part of the new entrant 
certification process. As noted above, the USG and Aerospace 
Corporation team was instrumental in identification of a potential root 
cause of the helium bottle anomaly and the subsequent development of 
the follow-on inspection acceptance criteria.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Has SpaceX received any sole-sourced missions from the 
Air Force, NASA or any other U.S. Department or Agency? If so, please 
explain?
    Ms. Shotwell. The DSCOVR and STP-2 missions were designated as 
Evolved Expendable Launch Vehicle (EELV) New Entrant missions, and were 
contracted under the U.S. Air Force IDIQ contract called Orbital/
Suborbital Program (OSP-3), which is managed out of Kirtland Air Force 
Base. The OSP-3 program is a competed contract vehicle. The Air Force 
selected SpaceX, Orbital-ATK, with its Minotaur family, and Lockheed 
Martin's Athena vehicle as eligible competitors for launches under this 
program. The Air Force released the OSP-3 Request for Proposals (RFP) 
under solicitation FA8818-12-R-2006 on May 11, 2012 for the IDIQ and 
for two task orders to be ordered under the IDIQ: DSCOVR and STP-2. 
According to Aviation Week (Dec. 10, 2012), Orbital offered a bid, as 
did SpaceX. SpaceX successfully launched the DSCOVR satellite on a 
Falcon 9 in February 2015; STP-2 is currently scheduled for launch in 
2016 on a Falcon Heavy.
    Mr. Brooks. SpaceX claimed in its testimony that with the Falcon 9 
Heavy, it has the capability to perform all missions in the national 
mission model. In 2014, SpaceX stated ``With the Falcon 9 and the 
Falcon Heavy, SpaceX will be able to execute 100 percent of the DOD's 
launch requirements with two launch vehicle configurations.'' Please 
describe the performance capability (in lbs) of Falcon 9 Heavy direct 
inject to Geosynchronous Orbit. How will the upper stage handle the 
long on-orbit coast required for this mission? What is the longest 
coast performed to date by the upper stage?
    Ms. Shotwell. The baseline Falcon Heavy is capable of launching 
just over 18,000lbm direct to Geostationary orbit using a three upper 
stage burn mission profile. The mission profile includes a five hour 
and 14 minute long coast between the second and third burn. While the 
longest coast SpaceX has performed to date is only three hours, 
development of a ``long coast kit'' is planned for Falcon Heavy to 
enable the direct to GEO mission profile with low risk. The mass 
budgeted for this long coast kit is not to exceed 3000lbm, resulting in 
Falcon Heavy performance greater than 15,000lbm direct to GEO. This 
capability exceeds the most strenuous capability required by the Air 
Force of 13,770lbm direct to GEO thus allowing Falcon 9 and Falcon 
Heavy to address 100% of the DOD's launch requirements.
    Mr. Brooks. SpaceX stated in 2014 their Falcon 9 heavy ``while 
being the most powerful launch vehicle in the world--twice the 
capability of the Delta IV Heavy.'' Please clarify this statement in 
regards to the National Security Space. What is the Falcon Heavy lift 
capability for National Security Space Geosynchronous Orbit missions?
    Ms. Shotwell. Falcon Heavy lift capability for national security 
space geosynchronous transfer orbit (GTO) is 41,570 lb (18,856 kg).
    Mr. Brooks. SpaceX stated that the Falcon Heavy was delayed due to 
internal priorities. Given that SpaceX has stated that its overall goal 
is to get to Mars and other planets, what confidence can SpaceX provide 
to National Security Space customers that their priorities will not be 
delayed due to SpaceX internal decisions.
    Ms. Shotwell. SpaceX and the Air Force have been focused on EELV 
certification of the Falcon 9 launch vehicle. We anticipate 
certification no later than June 2015. SpaceX has submitted its EELV 
certification statement of intent for the Falcon Heavy. Critically, our 
top priority is providing the most reliable launch services in the 
world to our customers. SpaceX's commitment to national security space 
launch is evidenced by the self- funded effort to date associated with 
meeting EELV requirements, including launch vehicle certification, and 
the development of vehicles capable of performing all EELV missions. 
SpaceX will fulfill contractual obligations for national security space 
launch customers, as with our NASA and commercial customers. SpaceX 
regularly conducts U.S. Government missions, including several U.S. 
Government missions this year, for both NASA and the U.S. Air Force. 
Falcon Heavy is under contract for launch in 2016 for the U.S Air 
Force, as well as a number of commercial customers. As a result, SpaceX 
is manufacturing, qualifying, and demonstrating the vehicle prior to 
these launch dates.
    Mr. Brooks. Given that SpaceX has delayed the Falcon Heavy due to 
internal priorities. Please provide the key milestones and specific 
dates between now and the launch date of Falcon Heavy.
    Ms. Shotwell. Fabrication and qualification of the Falcon Heavy is 
currently underway. Reconfiguration of Launch Complex 39-A to support 
Falcon 9 and Falcon Heavy launches will be completed in the summer of 
2015, and SpaceX will perform a Wet Dress Rehearsal of the Falcon Heavy 
in the fall. The self-funded demonstration flight of the Falcon Heavy 
is currently scheduled to occur late in 2015.
    Mr. Brooks. SpaceX has repeatedly claimed to have self-funded its 
launch infrastructure at both the Cape and Vandenberg and by mid-2015, 
SpaceX will have two launch pads in Florida for geostationary orbit 
missions. When does SpaceX intend to have two launch pads in Florida 
for geostationary orbit missions?
    Ms. Shotwell. To date, SpaceX has self-funded its launch 
infrastructure. Currently, SpaceX maintains operational pads at Cape 
Canaveral Air Force Station (CCAFS) at Launch Complex 40 (LC-40) and 
Vandenberg Air Force Base (VAFB) at Space Launch Complex 4E (SLC-4E). 
This summer, SpaceX will complete work on Launch Complex-39A (LC-39A) 
within NASA Kennedy Space Center (KSC) to support Falcon 9 and Falcon 
Heavy launches. SpaceX expects to complete work on a fully commercial 
launch site in South Texas by the end of 2016, to support launches in 
2017. Each of the Florida and Texas pads will be able to support 
launches to geostationary orbits.
    Mr. Brooks. SpaceX has made claims to bringing back the commercial 
launch market to the U.S. SpaceX also stated in 2014 that there is no 
conflict between U.S. Government National Security or NASA missions 
because ``SpaceX prioritizes DOD and NASA missions over commercial 
missions.'' How have SpaceX's commercial customers de-conflicted their 
need for launches based on this policy?
    Ms. Shotwell. SpaceX has recaptured a substantial share of the 
commercial launch market--more than 50 percent of the world's competed 
launches next year. Notably, prior to SpaceX's entry into the 
commercial market, U.S. market share had dwindled to zero percent. Our 
chief competitors in the commercial arena have been Russian and 
European. There is no conflict between U.S. Government missions and 
commercial missions. SpaceX maintains a clear manifest policy that is 
part of each of our commercial contracts, which prioritizes U.S. 
Government missions. Moreover, SpaceX's Air Force and NASA Cargo 
Resupply Services (CRS) contracts are rated either DO, DX, or in 
support of the International Space Station (ISS), meaning that SpaceX 
has a contractual legal right to prioritize these launches ahead of 
commercial missions, as necessary. SpaceX has invested internal funds 
in the development of additional launch infrastructure (i.e. the South 
Texas launch site) to eliminate manifest congestion and any schedule 
conflicts at the Federal Ranges.
    Mr. Brooks. SpaceX has repeatedly made claims of their Heavy debut. 
In a 2011 press release SpaceX said they would launch the Falcon Heavy 
in early 2013. Ms. Shotwell was quoted in 2014 claiming the Heavy would 
launch in March 2015, and during your recent testimony you stated ``we 
did deemphasize the Falcon Heavy development after I made that remark 
because we wanted to focus on the single stick or the single core 
Falcon 9.'' What year and month will the Falcon Heavy launch? How many 
launches of the Heavy in 2015? Is one of them self-funded, like SpaceX 
indicated in 2014?
    Ms. Shotwell. SpaceX has timed Falcon Heavy development and 
demonstration to precede our contractual obligations for the 
operational launch of the vehicle. The first launch contract for Falcon 
Heavy--for STP-2, an Air Force mission--was pushed back as a result of 
a delay with the Government's COSMIC-2 payload. Accordingly, SpaceX was 
in a position to move back our self-funded demonstration flight of the 
Falcon Heavy, while focusing on EELV certification of the Falcon 9 
launch vehicle and other matters. SpaceX anticipates flying this 
demonstration flight in 2015. We have additional commercial Falcon 
Heavy flights under contract in 2016.
    Mr. Brooks. SpaceX stated that it does not need any subsidies from 
the U.S. Government. To confirm, SpaceX, and its management, believes 
that the U.S. Government should not subsidize companies or use taxpayer 
money to provide subsidies that do not benefit all participants of an 
industry?
    Ms. Shotwell. The Government should not subsidize the fixed costs 
or business overhead of any one provider in a competitive procurement. 
As General Hyten recently testified before this Committee, such 
subsidies make it impossible to hold a fair competition, stating: ``I 
don't think you can have fair competition with that contract in place. 
There'll have to be a change.''
    Mr. Brooks. What condition is the booster in after recovery? The 
booster must fly at hypersonic velocities through its own Merlin 
exhaust, then again prior to landing. Please describe how the booster 
will be treated after exposure to this very harsh environment. Also 
please describe what refurbishment actions are included when recovering 
a booster? What reviews will SpaceX conduct to ensure readiness of the 
booster?
    Ms. Shotwell. SpaceX has not recovered a booster at this time; once 
we successfully perform recovery on an upcoming flight, we will analyze 
the booster and engines. We will then be able to fully ascertain its 
condition and next steps for refurbishment.

                                  [all]
</pre></body></html>
